No.
__________________________________________________________________
IN THE

Supreme Court of the United States
________________
DESMOND S. GAINES,
v.

Petitioner,

UNITED STATES OF AMERICA,

Respondent.

________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
________________
PETITION FOR A WRIT OF CERTIORARI
________________
MELODY BRANNON
Federal Public Defender
PAIGE A. NICHOLS
ASSISTANT FEDERAL PUBLIC DEFENDER

Counsel of Record

KANSAS FEDERAL PUBLIC DEFENDER
117 SW 6th Ave, Ste 200
Topeka, Kansas 66603
Phone: (785) 232-9828
Email: paige_nichols@fd.org

Counsel for Petitioner

__________________________________________________________________

QUESTION PRESENTED
An anonymous tip must either be reliable on its own or be adequately corroborated
before it can provide reasonable suspicion to seize a person. This Court has analyzed
a range of tips from a “bare report” that “surely” fell on the no-reasonable-suspicion
side of the line, Florida v. J.L., 529 U.S. 266, 271 (2000), to tips that, under the
totality of circumstances, provided reasonable suspicion in “close” or “borderline”
cases, Navarette v. California, 572 U.S. 393, 404 (2014); Alabama v. White, 496 U.S.
325, 332 (1990). Despite these guideposts, courts continue to struggle with the
reasonable-suspicion spectrum when it comes to anonymous tips. Meanwhile, law
enforcement is increasingly encouraging and using anonymous tips—including via
911. The question presented here is:
If an anonymous 911 tipster implies that he saw a person sell drugs in a bustling
public area, may officers seize the person without first corroborating the tipster’s
claim of illegality?

i

TABLE OF CONTENTS
Question Presented......................................................................................................... i
Table of Contents .......................................................................................................... II
Index to Appendix ........................................................................................................ III
Table of Authorities Cited ........................................................................................... IV
Petition for Writ of Certiorari ....................................................................................... 1
Opinions Below .............................................................................................................. 1
Jurisdiction .................................................................................................................... 1
Constitutional Provision Involved ................................................................................ 1
Statement of the Case ................................................................................................... 2
1.

Legal Background ................................................................................................... 3

2.

Factual Background ................................................................................................ 6

3.

Proceedings Below .................................................................................................. 8

Reasons for Granting the Writ .................................................................................... 11
1.

How to measure the reliability of anonymous tips is an exceptionally
important question, as law enforcement increasingly encourages and uses
anonymous tips—including anonymous 911 tips. ............................................... 11

2.

Given law enforcement’s modern efforts to encourage anonymous tips,
Navarette’s confidence in the honesty and accuracy of anonymous 911
tipsters no longer holds. ........................................................................................ 14

3.

Getting the reasonable-suspicion analysis right in anonymous-tip cases is
crucial given the number of tips reported, and the risk that such tips may
be mistaken or deliberately false.......................................................................... 16

4.

The Tenth Circuit failed to hold the government to its burden of
establishing reasonable suspicion in Mr. Gaines’s case. ..................................... 17

5.

Other courts more faithfully apply this Court’s precedents when
analyzing anonymous tips. ................................................................................... 28

6.

This case is an excellent vehicle for analyzing anonymous tips. ........................ 30

Conclusion .................................................................................................................... 33

ii

INDEX TO APPENDIX
Appendix A: Tenth Circuit’s 2021 Order and Judgment
Appendix B: Tenth Circuit’s 2019 Decision
Appendix C: District Court’s Memorandum and Order on remand from the Tenth
Circuit’s 2019 decision
Appendix D: District Court’s initial Memorandum and Order

iii

TABLE OF AUTHORITIES CITED
PAGE

Cases
Alabama v. White, 496 U.S. 325 (1990) .............................................................. passim
Carter v. United States, 530 U.S. 255 (2000) .............................................................. 30
Cooper Industries, Inc. v. Leatherman Tool Group, Inc., 532 U.S. 424 (2001) .......... 31
Eastern Assoc. Coal Corp. v. United Mine Workers of America, Dist. 17,
531 U.S. 57 (2000) .................................................................................................... 31
Ewing v. California, 538 U.S. 11 (2003) ..................................................................... 31
Florida v. J.L., 529 U.S. 266 (2000) .................................................................... passim
Florida v. Royer, 460 U.S. 491 (1983) ........................................................................... 3
Kansas v. Glover, 140 S. Ct. 1183 (2020) .......................................................... 3, 17, 28
Kaupp v. Texas, 538 U.S. 626 (2003) .......................................................................... 31
Lombardo v. City of St. Louis, 141 S.Ct. 2239 (2021) ................................................ 27
Los Angeles County, California v. Rettele, 550 U.S. 609 (2007) ................................. 30
National Archives and Records Admin. v. Favish, 541 U.S. 157 (2004) ................... 30
Navarette v. California, 572 U.S. 393 (2014) ...................................................... passim
Noreja v. Commissioner, SSA, 952 F.3d 1172 (10th Cir. 2020) ................................. 32
State v. Hneidy, 510 S.W.3d 458 (Tex. App. San Antonio 2013) ................................ 30
State v. Z.U.E., 315 P.3d 1158 (Wash App. Div. 2 2014)............................................ 29
Stinson v. State, 117 So. 3d 859 (Fla. App. Dist. 4 2013) ........................................... 29
United States v. Black, 707 F.3d 531 (4th Cir. 2013) ................................................. 26
United States v. Calandra, 414 U.S. 338 (1974) ......................................................... 23
United States v. Caruthers, 458 F.3d 459 (6th Cir. 2006) .......................................... 26
iv

United States v. Cortez, 449 U.S. 411 (1981) .............................................................. 24
United States v. Davis, 94 F.3d 1465 (10th Cir. 1996) ............................................... 25
United States v. Dye, No. 18-20094-01-DDC, 2021 WL 2515029 (D. Kan.
June 18, 2021) ........................................................................................................... 32
United States v. Griffin, 730 F.3d 1252 (11th Cir. 2013) ........................................... 26
United States v. Hauk, 412 F.3d 1179 (10th Cir. 2005) ............................................. 15
United States v. Lopez, 907 F.3d 472 (7th Cir. 2018) ................................................. 29
United States v. Lowe, 791 F.3d 424 (3d Cir. 2015) ............................................. 28, 29
United States v. Massenburg, 654 F.3d 480 (4th Cir. 2011) ...................................... 29
United States v. McHugh, 639 F.3d 1250 (10th Cir. 2011) ........................................ 18
United States v. Montero-Camargo, 208 F.3d 1122 (9th Cir. 2000)........................... 25
United States v. Roberson, 90 F.3d 75 (3d Cir. 1996) ................................................. 29
United States v. Santio, 351 Fed. Appx. 324 (10th Cir. 2009) ............................. 18, 25
United States v. Sauzameda-Mendoza, 595 Fed. Appx. 769 (10th Cir. 2014) ........... 18
United States v. Velazquez-Fontanez, 6 F.4th 205 (1st Cir. 2021) ............................. 14
Wisconsin Right to Life, Inc. v. F.E.C., 546 U.S. 410 (2006) ...................................... 31
Statutes
10 U.S.C. § 1794(b) ...................................................................................................... 12
14 U.S.C. § 2923(c)(2) .................................................................................................. 12
22 U.S.C. § 2507a(e)(3)(A) ........................................................................................... 12
28 U.S.C. § 1254(1) ........................................................................................................ 1
38 U.S.C. § 323 (c)(2) ................................................................................................... 12
42 U.S.C. § 9858j(b)(1)(B) ............................................................................................ 13
v

Cal. Educ. Code § 67382(b) .......................................................................................... 13
Cal. Pub. Res. Code § 4417.5(a)................................................................................... 13
N.Y. Educ. Law § 6446 ................................................................................................ 13
N.Y. Lab. Law § 27-a(6-a) ............................................................................................ 13
N.Y. Soc. Serv. Law § 492 ............................................................................................ 13
Other Authorities
10th Cir. R. 32.1(A) ...................................................................................................... 31
Fed. R. Evid. 803(1) ..................................................................................................... 20
Fed. R. Evid. 803(2) ..................................................................................................... 20
Joint Press Release—Denver Police Department, Colorado Bureau of
Investigation, FBI, U.S. Attorney’s Office, 2021 WL 1663958
(DOJ News Release April 26, 2021) ......................................................................... 11
Task Force Releases Child-Focused Video to Combat Violent Crime, 2021 WL
1978931 (DOJ News Release May 18, 2021) ........................................................... 11
U.S. Const. amend. IV ......................................................................................... passim

vi

PETITION FOR WRIT OF CERTIORARI
Petitioner Desmond Gaines respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for the Tenth Circuit.
OPINIONS BELOW
The Tenth Circuit’s 2021 order and judgment (the subject of this petition) is
unpublished and is included as Appendix A. The Tenth Circuit’s 2019 decision is
published at 918 F.3d 793 and is included as Appendix B. The district court order
denying Mr. Gaines’s motion to suppress on remand from the Tenth Circuit’s 2019
decision is included as Appendix C. The original district court order denying Mr.
Gaines’s motion to suppress is included as Appendix D.
JURISDICTION
The Tenth Circuit’s judgment was entered on May 25, 2021. Pet. App. 1a. This
Court has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The Fourth Amendment to the United States Constitution provides:
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly describing the place
to be searched, and the persons or things to be seized.

1

STATEMENT OF THE CASE
Anonymous tips are vital to law enforcement. Victims and witnesses are more
likely to report crimes if they can do so without fear of retaliation, embarrassment,
scrutiny of their own conduct, and other unwanted attention. At the same time, “an
anonymous tip alone seldom demonstrates the informant’s basis of knowledge or
veracity.” Alabama v. White, 496 U.S. 325, 329 (1990). Something more is usually
needed to protect people accused by anonymous pranksters, bullies, misguided
vigilantes, and nosey but mistaken neighbors. Id. Under this Court’s precedents, an
anonymous tip must either be sufficiently reliable on its own (“an exception to the
general rule,” id.) or else adequately corroborated by additional evidence to satisfy
the Fourth Amendment’s requirement of reasonable suspicion. Id. After all,
reasonable suspicion is the only thing that stands between any of us and a police
seizure of our person based on a nameless and unaccountable tipster’s accusation.
This Court last analyzed anonymous tips and reasonable suspicion in Navarette
v. California, 572 U.S. 393 (2014) (analyzing a tip made in 2008). Since then, law
enforcement has increasingly invited and relied on anonymous tips—including
anonymous 911 tips. Anonymous tips can now be made not only by telephone but also
via websites and mobile apps. Given the extraordinarily high number of anonymous
tips reported, and the risk that such tips may be mistaken or false, this Court’s
renewed guidance with respect to such tips and reasonable suspicion is crucial.
In Petitioner Gaines’s case, the Tenth Circuit failed to hold the government to its
burden of proving either that the anonymous tip in this case was reliable on its own

2

or that it was sufficiently corroborated to support law enforcement’s seizure of Mr.
Gaines. Other courts are more faithful to this Court’s precedents. This case is an ideal
vehicle for examining anonymous tips: it involves a number of factors common to
anonymous-tip cases, and the reasonable-suspicion question was squarely presented
and decided. This Court should grant this petition.
1. Legal Background
The Fourth Amendment prohibits unreasonable seizures of “persons, houses,
papers, and effects.” U.S. Const. Amend. IV. Once the defendant in a criminal case
has established a seizure, it is the government’s burden to establish that the seizure
was based on reasonable suspicion. Florida v. Royer, 460 U.S. 491, 500 (1983).
Reasonable suspicion is “a particularized and objective basis for suspecting the
particular person stopped of criminal activity.” Kansas v. Glover, 140 S. Ct. 1183,
1187 (2020) (citations omitted). Courts must consider the “totality of the
circumstances—the whole picture” in deciding whether an anonymous tip provides
reasonable suspicion. White, 496 U.S. at 330. “Thus, if a tip has a relatively low degree
of reliability, more information will be required to establish the requisite quantum of
suspicion than would be required if the tip were more reliable.” Id.
This Court analyzed anonymous tips and reasonable suspicion in White (1990);
Florida v. J.L., 529 U.S. 266 (2000); and Navarette (2014). In White, an anonymous
tipster called the police to report that a drug transaction was imminent. The police
proceeded to corroborate both the physical aspects of the tipster’s report (the locations
involved and the description of the alleged seller’s car) and the activities that the

3

tipster predicted (a woman traveled from an identified apartment complex toward an
identified motel within the identified time frame). This corroboration of the tipster’s
predictive information was sufficient to establish reasonable suspicion. While anyone
could have described the car, “[w]hat was important was the caller’s ability to predict
respondent’s future behavior, because it demonstrated inside information—a special
familiarity with respondent’s affairs.” Id. at 332 (emphasis in original). Nonetheless,
this Court described White as “a close case.” Id.
In J.L., this Court held that an anonymous tip did not provide responding officers
with reasonable suspicion to detain the defendant. 529 U.S. at 270-71. The J.L.
tipster had reported that a young person was “carrying a gun”—a crime in Florida for
under-21-year-olds. Id. at 268, 273 n.*. And the tipster had described the person in
detail (“a young black male standing at a particular bus stop and wearing a plaid
shirt”). Id. at 268. This Court held that this tip did not provide reasonable suspicion
for two reasons. First, the tipster “neither explained how he knew about the [crime]
nor supplied any basis for believing he had inside information about [the alleged
suspect].” Id. at 271. And second, the tipster “provided no predictive information” that
would allow the police “to test the informant’s knowledge or credibility.” Id.
Finally, in Navarette, this Court held that an anonymous 911 tipster’s report of a
dangerous driver rose to the level of reasonable suspicion. 572 U.S. at 395. This Court
relied on three factors. First, the Navarette tipster knew that the driver was
dangerous because he had run her off the road. Id. In other words, the tipster was
not just an eyewitness to the driver’s crime; she was a victim of the driver’s crime.

4

Her basis of knowledge was clear. Second, law-enforcement was able to corroborate
the driver’s direction and location. Third, the tipster’s use of the 911 system justified
reliance on the call. Id. at 398-401. But this Court called Navarette a “close case.” Id.
at 404. This Court emphasized that “[n]one of this is to suggest that tips in 911 calls
are per se reliable.” Id. at 401. And it cautioned that “[a]n anonymous tip alone seldom
demonstrates the informant’s basis of knowledge or veracity.” Id. at 404, 397
(emphasis original to Navarette; citing White). This is because “an anonymous
tipster’s veracity is by hypothesis largely unknown, and unknowable.” Id. at 397
(internal quotation marks and citation omitted).
Reading these cases together: the tipster in J.L. did not provide law enforcement
with his basis of knowledge, nor did he provide predictive information for law
enforcement to corroborate. Absent either of these important factors, the case was
not even close; rather, it “surely” fell on the no-reasonable-suspicion side of the line.
529 U.S. at 271. The tips in White and Navarette just barely landed on the other side—
in White because the tipster provided predictive information, and in Navarette
because of the tipster’s clear basis of knowledge. But again this Court labeled these
“close” or “borderline” cases. Navarette, 572 U.S. at 399, 404; J.L., 529 U.S. at 271;
White, 496 U.S. at 332. And so if there is much daylight between J.L. and
White/Navarette, it falls mostly on the no-reasonable-suspicion side of the line:

5

2. Factual Background
Downtown Kansas City, Kansas is home to a number of social services, including
the Wilhelmina Gill Center (which houses a food kitchen) and, catty-corner across an
intersection, the Frank Williams Center (a resource center for homeless people). Pet.
App. 2a. Two parking lots sit at this intersection; one is next to the food kitchen, and
the other is across the street next to the resource center. R1.85; R1.101.1 The corner
is “a very high-trafficked area for pedestrians.” R1.85. It sits less than two blocks
west of the Robert J. Dole Federal Courthouse, and about a block away from a United
States Post Office.
On the morning of August 24, 2015, an anonymous tipster dialed 911 and claimed
that “we have a suspect in all red clothing selling juice” or “wet”2 “down here.” Pet.
App. 2a, 25a; R1.89; Exh. 1 (audio of 911 call). The tipster described the “suspect” as
a “light skinned black” man, and said that the man “just made about 20 dollars.” Pet.
App. 3a. The tipster did not say where exactly this claimed sale had taken place or
how the tipster knew about it. The tipster told the dispatcher that the officers should
go “to the parking lot,” but he did not know what kind of car the man was driving.
Pet. App. 3a. At the beginning of the call, the tipster did not even know where the
man was; he reported later during the call that he was watching the man walking up
the street and then standing on a corner. Pet. App. 3a, 14a. Nothing that the tipster
reported witnessing in real time during the call suggested illegal activity.

Unless otherwise noted, record citations for facts not included in the Appendix are to the record on
appeal in Tenth Circuit Appeal No. 19-3177.

1

2

Slang for phencyclidine (PCP). R1.90.

6

A security guard for the Frank Williams Center heard about the tipster’s report
on his police radio. Pet. App. 56a, 56c.; R1.133-34. He had earlier seen Mr. Gaines,
who was dressed in red, wiping down a white Cadillac in the food-kitchen lot, but he
had not witnessed Mr. Gaines selling any drugs. Pet. App. 4a, 56a. When the guard
saw two patrol cars driving up the street, he radioed them that Mr. Gaines was in the
white Cadillac. Pet. App. 4a.
The responding officers did not ask the guard what else he knew about Mr. Gaines.
And they made no attempt to find the anonymous tipster. Nor did they talk with any
of the many other people milling about the area. They did not run the plates of the
white Cadillac. They did not surveil the white Cadillac or approach it in a low-key
conversational style. Instead, they pulled directly up to Mr. Gaines with their patrol
lights flashing, ordered Mr. Gaines out of the white Cadillac, and seized him:

7

Pet. App. 32a-33a (image from parking-lot pole-camera video included in first Tenth
Circuit decision concluding that encounter was a seizure). This seizure led to Mr.
Gaines’s arrest and the discovery of the drugs and the gun that were the subject of
the prosecution underlying this petition. Pet. App. 5a.
3. Proceedings Below
A federal grand jury indicted Desmond Gaines for federal drug and gun crimes.
Pet. App. 5a. Mr. Gaines moved to suppress the evidence seized on August 24, 2016,
arguing that it was the fruit of an unlawful seizure. Id. At an evidentiary hearing on
Mr. Gaines’s motion, the government introduced the 911 call (Exh. 1), as well as
footage from a nearby parking-lot pole camera (Exh. 2), and from the dash camera of
one responding officer’s patrol car (Exh. 3). Pet. App. 68a, 70a. Both responding
officers testified that they approached Mr. Gaines based on the information conveyed
by the 911 tipster. Pet. App. 68a.
One officer also testified summarily that law enforcement had previously received
“complaints of narcotics sales in the area.” Pet. App. 22a, 55a. Another officer, when
asked about “drug transactions going on at the center,” answered without elucidation
that “[w]e’ve had some investigations going on.” R1.147. But the government
presented no documentary evidence of any reports of narcotics sales in the area or
investigations into drug transactions at the center. Rather, it presented evidence
that, from March 2015 through August 2015, the Kansas City, Kansas Police
Department received eight calls requesting assistance for people in the area near the
food kitchen and resource center apparently exhibiting the effects of drugs. Pet. App.

8

22a, 55a; R1.85-89; R1Supp.Exh. 7. None of those calls involved the distribution of
drugs at that location. R1Supp.Exh. 7. Neither did the government present any
evidence to suggest that, if there was trafficking in the area, it was of an unusually
high amount, that is, higher than in any other part of Kansas City. And neither did
the government present any evidence that an unusually high percentage of people
who frequent the area are involved in drug trafficking as opposed to going about their
daily activities at one of the social-service centers, at the nearby post office, or at the
federal courthouse.
The district court originally denied the motion to suppress on grounds that the
encounter between Mr. Gaines and the officers was consensual. Pet. App. 74a-77a.
Mr. Gaines proceeded to trial, where, based on the evidence seized, a jury convicted
him of all counts. Pet. App. 5a. The district court thereafter sentenced Mr. Gaines to
180 months of imprisonment followed by 8 years of supervised release. Id.
Mr. Gaines appealed to the Tenth Circuit, arguing that the district court erred in
finding the encounter consensual. Pet. App. 25a. The Tenth Circuit agreed, vacated
the district court’s order denying the motion, and remanded the case so that the
district court could decide in the first instance whether law enforcement had
reasonable suspicion when it seized Mr. Gaines (an issue the district court had not
reached in its original order denying suppression). Pet. App. 42a-43a. On remand, the
district court found reasonable suspicion, denied Mr. Gaines’s motion to suppress,
and orally reinstated the original judgment. Pet. App. 60a-65a; R1.229; R1.245.

9

Mr. Gaines appealed again to the Tenth Circuit, this time challenging the district
court’s reasonable-suspicion finding. Pet. App. 2a. The Tenth Circuit affirmed in an
unpublished order. Pet. App. 1a. The Tenth Circuit found the tipster reliable—in
large part because of his use of the 911 system—and held that the evidence of
apparent drug overdoses in the area was sufficient to corroborate the call, with a net
result of reasonable suspicion to support the officers’ detention of Mr. Gaines. Pet.
App. 13a-23a.
This timely petition follows.

10

REASONS FOR GRANTING THE WRIT
1. How to measure the reliability of anonymous tips is an exceptionally
important question, as law enforcement increasingly encourages and
uses anonymous tips—including anonymous 911 tips.
Want to be an anonymous tipster? There’s an app for that. The ReportIt® mobile
app is touted by both the Department of Justice and the Bureau of Alcohol, Tobacco,
Firearms and Explosives for anonymously reporting crimes under the ATF’s
jurisdiction.3 With a different mobile app, P3 Tips, you can submit anonymous tips to
Crime Stoppers programs across the nation, from Sacramento4 to Kansas City5 to
New York City.6 These days, law enforcement agencies heavily promote anonymous
reporting, whether by phone, mobile app, or website. See, e.g., Task Force Releases
Child-Focused Video to Combat Violent Crime, 2021 WL 1978931 (DOJ News Release
May 18, 2021) (promoting anonymous Greater Kansas City Crime Stoppers TIPS
Hotline with access via phone, mobile app, or website); Joint Press Release—Denver
Police Department, Colorado Bureau of Investigation, FBI, U.S. Attorney’s Office,
2021 WL 1663958 (DOJ News Release April 26, 2021) (promoting anonymous
Safe2Tell reporting program with access via phone, mobile app, or website).7

https://www.justice.gov/actioncenter/report-crime (linking to app on Google Play, the Apple App
Store, and https://reportit.com/); https://www.atf.gov/atf-tips.
3

4

http://www.crimealert.org/sitemenu.aspx?P=P3App&ID=609#.

5

http://www.kccrimestoppers.com/sitemenu.aspx?P=P3App&ID=452.

6

https://www1.nyc.gov/site/nypd/services/see-say-something/crimestoppers.page.

See also https://www.phillypolice.com/forms/submit-a-tip/ (Philadelphia);
https://www.slmpd.org/anonymous_tips.shtml (St. Louis); https://www.austintexas.gov/page/submittips (Austin); https://www.wilmingtonnc.gov/departments/police-department/reporting-crime
(Wilmington).
7

11

The Department of Justice, for instance, refers users to an anonymous online tip
form for reporting human trafficking.8 And the Federal Bureau of Investigation
actively solicits tips via its Facebook and Twitter feeds.9 Its electronic tip form advises
users that “[y]ou are not required to provide your name or other personal
information.”10 These solicitations have results: the FBI reported in 2016 that its Tip
Line web portal receives on average 1,300 tips a day (though it did not state how
many of those tips are anonymous).11
The ability to report crimes anonymously is even required by law for some types
of crimes. Examples include 10 U.S.C. § 1794(b) (“The Secretary shall ensure that
such reports [of suspected child abuse or safety violations at a military child
development center or family home day care site] may be made anonymously if so
desired by the person making the report.”); 14 U.S.C. § 2923(c)(2) (“The Commandant
shall ensure that an individual making a report [of suspected child abuse or other
deficiencies in a Coast Guard child development center or family home daycare] may
do so anonymously if so desired by the individual.”); 22 U.S.C. § 2507a(e)(3)(A) (The
President shall provide Peace Corps applicants “contact information for a 24-hour
sexual assault hotline to be established for the purpose of providing volunteers a
mechanism to anonymously . . . report sexual assault[.]”); 38 U.S.C. § 323 (c)(2) (“In
carrying out the functions of the Office [of Accountability and Whistleblower

https://www.justice.gov/actioncenter/report-crime (linking to form at
https://humantraffickinghotline.org/report-trafficking).
8

9

https://www.facebook.com/pg/FBI/posts/?ref=page_internal; https://twitter.com/fbi?lang=en.

10

https://tips.fbi.gov/.

11

https://www.fbi.gov/news/stories/fbi-tip-line-receives-actionable-tips-daily.

12

Protection], the Assistant Secretary shall ensure that the Office maintains a toll-free
telephone number and Internet website to receive anonymous whistleblower
disclosures”

regarding

the

Department

of

Veterans

Affairs.);

42

U.S.C.

§ 9858j(b)(1)(B) (The Secretary of Public Health and Welfare “shall operate . . . a
national toll-free hotline and Web site . . . “to allow persons to report (anonymously if
desired) suspected child abuse or neglect, or violations of health and safety
requirements, by an eligible child care provider that receives assistance under this
subchapter or a member of the provider’s staff.”); Cal. Educ. Code § 67382(b)
(legislative finding that certain institutes of higher education “should establish and
publicize a policy that allows victims or witnesses to report crimes to the campus
police department or to a specified campus security authority, on a voluntary,
confidential, or anonymous basis”); Cal. Pub. Res. Code § 4417.5(a) (Department of
Forestry and Fire Protection “shall, during the fire season, make a toll-free 800
telephone number available for, and establish, a program to protect the anonymity of
persons providing” information about certain arsons); N.Y. Educ. Law § 6446
(ensuring that individuals at state and city colleges and universities are advised of
options for confidentially and anonymously disclosing domestic violence, dating
violence, stalking, or sexual assault); N.Y. Lab. Law § 27-a(6-a) (mandating dedicated
webpage through which public employees may anonymously report “violations of any
state law, regulation, rule or guidance related to occupational health and safety
involving a communicable disease”); N.Y. Soc. Serv. Law § 492 (mandating hotline for

13

reports of abuse and other crimes against vulnerable persons; “[t]he hotline shall
accept anonymous calls”).
Finally—and crucially—some cities even go out of their way to assure the public
that they can call 911 anonymously.12
Law enforcement’s public efforts to encourage anonymous tips, even (and
especially) via 911, and the recent proliferation of means by which the public may
anonymously report crimes make the reliability of such tips an exceptionally
important question for this Court to address.
2. Given law enforcement’s modern efforts to encourage anonymous
tips, Navarette’s confidence in the honesty and accuracy of
anonymous 911 tipsters no longer holds.
In Navarette, this Court held that a reasonable officer in 2008 “could conclude
that a false tipster would think twice” before using 911 to sic the police on an
innocent person. 572 U.S. at 395, 401. This Court based this holding on
(1) technological and regulatory developments allowing 911 calls to be traced to the
originating telephone; and (2) an (apparent) assumption that the general public was
aware of those developments. Id.
Navarette left several questions unanswered. First, Navarette didn’t explain why
a false tipster who “think[s] twice” wouldn’t simply call 911 using a public phone, a
borrowed phone, or a burner phone to conceal his or her identity. See United States
v. Velazquez-Fontanez, 6 F.4th 205, 224-25 (1st Cir. 2021) (noting ATF Agent’s

https://www.facebook.com/lapdhq/videos/calling-911-anonymously/2611390979166689/ (Los
Angeles); https://www.chicago.gov/content/dam/city/depts/oemc/general/PDF/58-04%20%20911%20Caller%20Anonymity%20-%20Ald.%20Scott.pdf (Chicago);
https://crime.baltimorecity.gov/anonymous-crime-reporting (Baltimore).
12

14

testimony that drug traffickers “often carry multiple cell phones and use flip phones
as temporary ‘burner’ phones to evade law enforcement efforts to track and
intercept drug-related communications”). Second, Navarette didn’t account for the
fact that an anonymous tipster might be a naive mistaken tipster rather than a wily
false tipster. See United States v. Hauk, 412 F.3d 1179, 1188 (10th Cir. 2005) (“If in
Mrs. Grundy’s fertile imagination, the innocent doings of her neighbors assume the
aspect of dire criminality, her [anonymous, uncorroborated] report of her
conclusions to the police does not mean that a reasonable basis for suspicion
exists”). Third, as the Navarette dissent noted, “assuming the Court is right about
the ease of identifying 911 callers, it proves absolutely nothing in the present case
unless the anonymous caller was aware of that fact. It is the tipster’s belief in
anonymity, not its reality that will control his behavior.” 572 U.S. at 409 (Scalia, J.,
dissenting, joined by Justices Ginsburg, Sotomayor, and Kagan) (emphases in
original; internal marks and citation omitted).
Justice Scalia’s point is even stronger today given law enforcement’s modern
efforts to promote anonymous reporting. With cities from Los Angeles to Chicago to
Baltimore assuring the public that they can report crimes anonymously—even via
911—it is no longer reasonable (even if it was in 2008) for an officer to “conclude
that a false tipster would think twice” before using 911. 572 U.S. at 401. In fact the
opposite is true: the public has now been primed to believe that a person’s
anonymity will be protected if the person chooses not to identify himself or herself
when reporting a crime. In this environment, the government cannot bear its

15

burden of establishing reliability by simply noting that the tipster used 911 and
citing Navarette. This Court should grant this petition in order to revisit the
government’s reliance on 911 calls in-and-of themselves to bear its burden of
establishing reasonable suspicion.
3. Getting the reasonable-suspicion analysis right in anonymous-tip
cases is crucial given the number of tips reported, and the risk that
such tips may be mistaken or deliberately false.
We cannot know what percentage of anonymous tips are mistaken or deliberately
false. But available statistics suggests that only a small percentage of anonymous
tips are sufficiently corroborated to support arrests. WeTip, for instance, has
maintained an anonymous-tip hotline since 1972.13 In 2018, WeTip boasted “over
1,336,138 crimes reported,” 75% of which were drug related, “and NOT ONE
informant ever revealed.”14 And yet over a million anonymous reports resulted in only
16,391 arrests (1.23%) and 8,396 convictions (0.63%). Id. That leaves 1,319,747
anonymous reports that did not result in arrests (much less convictions).
Greater Kansas City Crime Stoppers reports a higher percentage success rate,
with 159,250 anonymous tips resulting in 11,450 arrests.15 But that number still only
amounts to 7.19%, leaving an overwhelming majority of tips (147,800) not resulting
in arrests. That may be for a variety of reasons. Some people commit crimes and flee;
others die or get caught for different crimes. Some crimes may generate multiple tips.

13

https://www.wetip.com/about-wetip/

https://www.wetip.com/anonymous-tips/10-reasons-why-you-should-support-wetip-the-crimestopping-anonymous-tip-service-this-holiday-season/ (capitalization in original)
14

15

http://www.kccrimestoppers.com/sitemenu.aspx?ID=452&

16

But surely these statistics also suggest that a large number percentage—surely far
more than half—of anonymous tips simply prove to be unreliable.
In Glover, this Court held that, absent specific cause to believe otherwise, it is
reasonable for a police officer to infer that a person with a revoked driver’s license
may continue driving. 140 S.Ct. at 1188-89. This Court relied in part on statistical
evidence that 75% of drivers with suspended or revoked licenses continue to drive.
Id. at 1188. No comparable evidence supports a presumption that anonymous tips are
reliable—to the contrary, the available evidence suggests that this Court was right
in White when it observed that anonymous tips alone seldom provide reasonable
suspicion. 496 U.S. at 329. And yet law enforcement continues to promote a culture
of anonymous reporting. This may well be a desirable culture—so long as law
enforcement does the work required to corroborate the reports it generates. This
Court should grant this petition to refine the reasonable-suspicion spectrum when it
comes to anonymous tips.
4. The Tenth Circuit failed to hold the government to its burden of
establishing reasonable suspicion in Mr. Gaines’s case.
In its decision affirming the district court, the Tenth Circuit did not mention that
the government bore the burden of establishing reasonable suspicion. Pet. App. 1a23a. Neither did the court acknowledge that the cases it relied on from this Court
(Navarette and White) were “close” or “borderline” cases. Navarette, 572 U.S. at 399,
404; J.L., 529 U.S. at 271; White, 496 U.S. at 332. Consequently, in considering the
totality of circumstances, the Tenth Circuit read the facts in a light unduly favorable
to law enforcement, and found reasonable suspicion despite the absence of factors
17

that were crucial in Navarette (basis of knowledge, 572 U.S. at 399) and White
(predictive information, 496 U.S. at 332).16 Along the spectrum of reasonable
suspicion, Mr. Gaines’s case is closer to J.L. (no reasonable suspicion) than to
Navarette and White (reasonable suspicion, but “close”), and the Tenth Circuit erred
in concluding otherwise. To explain, we will walk briefly through the eight factors
that the Tenth Circuit held contributed to reasonable suspicion and then touch on
one factor that the Tenth Circuit disregarded.
First, the Tenth Circuit misapplied Navarette when it concluded that the
anonymous tipster’s mere implication that he witnessed the man in red selling drugs
lent meaningful credibility to the tipster’s veracity. Pet. App. 13a. The Navarette
tipster was run off the road by the driver she reported; her basis of knowledge (as the
victim of a crime) was clear and lent “significant support to the tip’s reliability,”
ultimately supporting reasonable suspicion. 572 U.S. at 395, 399, 404. That basis of
knowledge was missing in Mr. Gaines’s case.
The government admitted in the district court that “the caller never explicitly says
how he knows of the illegal conduct,” and that “we ultimately cannot be sure the

The Tenth Circuit didn’t come out and say so here, but it has often said that it reviews the ultimate
question of reasonable suspicion in the light most favorable to the government when the government
prevailed in the district court. See, e.g., United States v. Sauzameda-Mendoza, 595 Fed. Appx. 769,
774 (10th Cir. 2014) (holding on undisputed facts “that the facts surrounding the traffic stop, when
viewed in their entirety and in the light most favorable to the government, gave Officer Alvarez
reasonable suspicion to extend the traffic stop for a canine sniff”) (emphasis added); United States v.
McHugh, 639 F.3d 1250, 1257–58 (10th Cir. 2011) (holding on undisputed facts “that the facts, viewed
in their entirety and in the light most favorable to the government, establish that reasonable suspicion
existed to justify the stop”) (emphasis added); and United States v. Santio, 351 Fed. Appx. 324, 330
(10th Cir. 2009) (unpublished) (holding on undisputed facts that, “based on the totality of the
circumstances and in viewing the evidence in the light most favorable to the government, we conclude
the district court did not err in finding a reasonable suspicion existed that Mr. Santio was involved in
criminal activity sufficient to justify the initial stop”) (emphasis added).
16

18

tipster was in a similar position to the caller in Navarette.” R1.174. And the district
court found only that the tipster “implie[d] that he personally observed Defendant’s
drug sale.” Pet. App. 61a (emphasis added). But this was not a finding (nor did the
evidence support a finding) that the tipster in fact personally observed any drug sale.
Mr. Gaines’s case is more like J.L. than Navarette. In J.L. the tipster likewise
implied that he had personal knowledge when he said that a young man standing at
a bus stop was carrying a gun. 529 U.S. at 268. But the tipster there did not explain
how he knew about the gun, id. at 271, just as the tipster here did not explain how
he knew about the claimed drug sale. Absent any evidence of the tipster’s basis of
knowledge, J.L. fell on the no-reasonable-suspicion side of the line. Id. at 271. The
point of the basis-of-knowledge analysis is to separate unreliable tips from reliable
tips. The closer the tipster claims to be to the action, the more reliable the tip is
presumed to be. A tipster who artfully “implies” personal observation of criminal
conduct is not as trustworthy as a caller who directly states: “This crime happened to
me,” or “I watched this crime take place.” The tipster here did not provide a basis for
his claimed knowledge. This factor weighed against a finding that the tipster was
reliable enough to provide reasonable suspicion for Mr. Gaines’s detention.
Second, the Tenth Circuit misapplied Navarette again when it found that the
tipster “undoubtedly made a ‘contemporaneous report’ of Mr. Gaines’s activities, both
non-criminal and criminal alike,” thereby negating the likelihood that his statements
were false. Pet. App. 14a. In Navarette, this Court noted a “substantial
contemporaneity” between the 911 call and the driver’s criminal activity (running the

19

caller off the road). 572 U.S. at 399-400 (citing Fed. R. Evid. 803(1) and (2)). This
Court found that this contemporaneity weighed in favor of the tipster’s veracity for
the same reason that present sense impressions and excited utterances are deemed
sufficiently reliable to admit through hearsay—their temporal proximity to the
reported event is presumed to negate the likelihood of (or opportunity for)
misrepresentation. Id. But the analogy to present sense impressions doesn’t work
absent personal observation of the thing allegedly impressed upon the speaker’s
senses—a crucial factor that, as noted above, distinguishes Mr. Gaines’s case from
Navarette. The present-sense-impression rule requires that the statement be made
“while the declarant was perceiving the event or condition, or immediately
thereafter.” Fed. R. Evid. 803(1) (emphasis added). The tipster’s mere implication
that he witnessed a drug sale did not establish that he in fact witnessed a drug sale;
his report of criminal activity was not a present sense impression and did not negate
any likelihood that he was either mistaken or lying.
The Tenth Circuit emphasized that the tipster made contemporaneous
observations when he described watching the man in red walking up the hill “right
now.” Pet. App. 14a. True enough. But the credibility of that part of the call was not
in question. What was in question was the tipster’s report that the man at some point
before the call engaged in criminal activity. In Navarette, the tipster’s “present sense
impression” was of the very criminal activity she called to report. 572 U.S. at 399–
400. In Mr. Gaines’s case, in contrast, even the government conceded in the district
court that “the caller here does not describe any criminal activity contemporaneously

20

with his observations.” R1.175. The government recognized that this fact “weakens
the reliability of the criminal allegations.” Id. (emphasis added). The Tenth Circuit
erred in reaching the opposite conclusion.
Third, the Tenth Circuit held that the tipster’s use of 911 was an “important”
factor under Navarette. Pet. App. 14a-15a. But the Tenth Circuit overread Navarette
on this point. Navarette held only that a tipster’s use of the 911 system is a “relevant
circumstance[ ],” 572 U.S. at 401—not that it is “important.” Additionally, the
government presented no evidence in Mr. Gaines’s case that the tipster’s use of the
911 system in fact put his identity at risk (nor was there any evidence that he believed
it would). It was the government’s burden to establish the tipster’s reliability; it
cannot satisfy that burden merely by invoking the tipster’s use of 911 and citing
Navarette.
Fourth, the Tenth Circuit held that the tipster was not “truly anonymous”
because he used the 911 system, told the dispatcher where he was calling from, and
stayed on the line for over two minutes. Pet. App. 15a. The Tenth Circuit concluded
that, taken together, these facts gave the police “quite possibly (if not likely) . . .
sufficient details to render the tipster readily identifiable.” Id. (internal marks and
citation omitted). But calling this tipster anything other than anonymous requires
pure imagination because the government (which, again, bore the burden here)
presented no evidence that he was “readily identifiable.”
The tipster did not give the dispatcher either his name or a call-back number. The
government presented no evidence that Mr. Gaines or anyone else knew the tipster

21

or would have been able to identify his recorded voice. The government presented no
evidence that the call was in fact traceable, or in fact traced, or for that matter
whether the tipster was using his own, traceable phone, as opposed to a third party’s
phone, a phone belonging to the Wilhelmina Gill Center, a pay phone, a “burner”
phone, or a smart phone with a caller-ID spoof app.
In addition to overlapping with the third (use of 911) factor, this not-trulyanonymous “factor” finds no support in this Court’s cases. In Navarette, this Court
treated the tip at issue as anonymous despite the fact that the caller used 911, told
the dispatcher where she was on the highway, and even, apparently, identified
herself by name. 572 U.S. at 398 & 398 n.1. And anyway, the tipster here was, in fact,
truly anonymous. We have no idea who he was. The tipster reported calling from a
food kitchen on an urban corner that a security guard testified was “a very hightrafficked area for pedestrians.” R1.85. Video footage from a pole camera confirms the
busy nature of the area. Exh. 2. If the tipster was still on the scene when the officers
arrived, he certainly didn’t volunteer his presence to them, and they made no effort
to find him there before seizing Mr. Gaines. The government never provided any
discovery of his identity. The Tenth Circuit’s strained law-enforcement-friendly
reading of the record to call this tipster “not truly anonymous” failed to hold the
government to its burden on this “factor.”
Fifth, the Tenth Circuit held that an additional indicia of reliability was the fact
that “the tipster never declined to give his name,” but rather, “the 911 operator did
not ask for it.” Pet. App. 16a. The fact that a 911 dispatcher doesn’t ask an anonymous

22

tipster for his name cannot possibly add to the tipster’s reliability. Indeed, it would
be odd for law enforcement’s failure to check the reliability of an anonymous tipster
to weigh in the government’s favor. Such a rule would create an affirmative
disincentive for law enforcement to ask any 911 callers to identify themselves—a
result directly contrary to the effect the exclusionary rule is meant to have. See United
States v. Calandra, 414 U.S. 338, 347 (1974) (“the rule’s prime purpose is to deter
future unlawful police conduct and thereby effectuate the guarantee of the Fourth
Amendment against unreasonable searches and seizures”). Law enforcement may
accommodate a caller’s wish for anonymity so long as it does the legwork to
corroborate that caller’s story. But it may not earn reliability credit when it neither
asks for a tipster’s identity nor bothers to corroborate his story before acting on the
tipster’s report.
Sixth, the Tenth Circuit concluded that the tipster’s manner was “measured and
circumspect,” suggesting “good faith” or at least the absence of a “malicious motive.”
Pet. App. 16a-17a. The tipster’s tone may well be in the ear of the beholder, but to
our ears the tipster a little too much enjoyed calling the law on the man in red and
using police-speak to accuse him of a crime (“we have . . . a suspect”). Ex. 1. His
manner was suspiciously gleeful. Id. This is another example of the Tenth Circuit
presuming the tipster reliable instead of holding the government to its burden.
Seventh, the Tenth Circuit found that the tipster’s credibility was enhanced by
the fact that he “identified the suspect’s physical appearance and location with a
fairly high degree of specificity.” Pet. App. 17a. Well of course he did. He wanted the

23

police to arrest the “suspect.” Mr. Gaines’s case is no different from J.L. in this regard.
And as this Court cautioned in J.L.: “An accurate description of a subject’s readily
observable location and appearance . . . will help the police correctly identify the
person whom the tipster means to accuse. Such a tip, however, does not show that
the tipster has knowledge of concealed criminal activity. The reasonable suspicion
here at issue requires that a tip be reliable in its assertion of illegality, not just in its
tendency to identify a determinate person.” 529 U.S. at 272. The Tenth Circuit’s
reliance, for reasonable-suspicion purposes, on the tipster’s description of his target’s
readily observable location and appearance contravenes J.L., and was error.
Eighth, the Tenth Circuit held that the anonymous tip was bolstered by the
responding officers’ knowledge of drug activity around the Wilhelmina Gill Center.
Pet. App. 21a-23a. But evidence that drug activity had previously been reported in
the area did nothing to corroborate the tipster’s claim that the man in red was
involved in such activity. The officers were required to have more than a reasonable
suspicion that someone might be selling drugs; they were required to have “a
particularized and objective basis for suspecting the particular person stopped of
criminal activity.” United States v. Cortez, 449 U.S. 411, 417-18 (1981) (emphasis
added).
Additionally, the officers approached Mr. Gaines in the middle of a weekday in a
public parking lot in a high-trafficked area where people frequently come and go
while pursuing legitimate daily activities at, for instance, the food kitchen, the
resource center, the post office, and the federal courthouse. In other words, this case

24

did not involve an actual “high crime” area frequented for no purpose other than
crime. See, e.g., United States v. Davis, 94 F.3d 1465, 1468 (10th Cir. 1996) (fact that
defendant was approaching a known criminal establishment did not give rise to
reasonable suspicion, “especially since the record shows that the establishment also
offered legitimate activities to its patrons”); United States v. Santio, 351 Fed. Appx.
324, 330–31 (10th Cir. 2009) (unpublished) (contrasting defendant’s suspicious
behavior while wearing gang apparel at 3:30 a.m. in “high crime area” near stolen
vehicle with Davis defendant’s presence at 10:00 p.m. near “a business offering both
illegal and legitimate activities”); United States v. Montero-Camargo, 208 F.3d 1122,
1139 n.32 (9th Cir. 2000) (contrasting value of “high crime area” designation in case
involving barren area at side of highway “which apparently served no purpose other
than as a site for criminal activity” with same designation “[w]ith respect to populated
areas, or areas in which people typically carry on legitimate activities”).
Finally, the government made no effort to establish that, if there was drug
trafficking (as opposed to mere use) in the area, it was of an unusually high amount,
that is, higher than in any other part of Kansas City. And neither did the government
present any evidence that an unusually high percentage of people who frequent the
area are involved in drug trafficking as opposed to going about their daily activities.
Basing reasonable suspicion to seize a person on evidence that drug activity has been
reported in an area where poor people go for social services (including drug-recovery
services)—without any basis for comparison—exposes an already vulnerable
population to unnecessarily intrusive police action. As one jurist has observed,

25

“labeling an area ‘high-crime’ raises special concerns of racial, ethnic, and
socioeconomic profiling.” United States v. Caruthers, 458 F.3d 459, 467 (6th Cir.
2006); accord United States v. Black, 707 F.3d 531, 542 (4th Cir. 2013) (“[T]he
demographics of those who reside in high crime neighborhoods often consist of racial
minorities

and

individuals

disadvantaged

by

their

social

and

economic

circumstances. To conclude that mere presence in a high crime area at night is
sufficient justification for detention . . . is to accept carte blanche the implicit
assertion that Fourth Amendment protections are reserved only for a certain race or
class of people.”); United States v. Griffin, 730 F.3d 1252, 1254–55 (11th Cir. 2013)
(“because neighborhoods described as ‘high-crime’ are almost always poor
communities of color, excessively-broad police discretion to frisk suspects in such
neighborhoods facilitates the disproportionate targeting of poor people of color by law
enforcement, contributing to unjustifiable levels of racial and socioeconomic
disparities in the criminal justice system”) (Barkett, J., dissenting from denial of
rehearing en banc).
The officers’ knowledge of drug activity in the area did not corroborate the
anonymous tipster’s claim that the man in red was selling drugs there, and did not—
even when added to the 911 call—provide reasonable suspicion for the officers to seize
Mr. Gaines.
Lastly, the Tenth Circuit unduly downplayed the fact that the tipster failed to
offer predictive information regarding either innocent or criminal activity. Pet. App.
17a-20a. The tipster had no idea what kind of car the man was driving and was

26

unable to predict so much as where the man in red was headed as he walked up the
hill. Pet. App. 3a., 14a, Exh. 1. As this Court cautioned in J.L., the absence of
predictive information leaves the police “without means to test the informant’s
knowledge or credibility.” 529 U.S. at 271. The absence of predictive information here
weighed against a finding of reasonable suspicion, and the Tenth Circuit failed to give
this absence its proper weight.
In the end, the Tenth Circuit cobbled together weak and problematic factors—
some of which this Court rejected as meaningful in J.L.—to find reasonable suspicion,
and ignored the absence of factors that were critical in White and Navarette. The
totality of circumstances did not support law enforcement’s seizure of Mr. Gaines.
The officers lacked reasonable suspicion for the seizure, and the Tenth Circuit erred
in concluding otherwise.
Review is necessary to correct the Tenth Circuit’s reasonable-suspicion analysis,
or, at the very least, because it is not clear that the Tenth Circuit properly held the
government to its burden of establishing reasonable suspicion. See Lombardo v. City
of St. Louis, 141 S.Ct. 2239, 2241-42 (2021) (granting petition for certiorari and
remanding excessive-force case where circuit court either failed to analyze relevant
evidence or characterized it as insignificant, thereby suggesting that court had
contravened “the careful, context-specific analysis required by this Court’s excessive
force precedent”).

27

5. Other courts more faithfully apply this Court’s precedents when
analyzing anonymous tips.
“[E]ach case is to be decided on its own facts and circumstances.” Glover, 140 S.Ct.
at 1191 (citations omitted). That said, other circuit and state courts are less willing
than the Tenth Circuit was in Mr. Gaines’s case to conclude that the police may detain
a person based on an anonymous tip without first corroborating the tipster’s claim of
illegality.
In United States v. Lowe, for instance, the Third Circuit emphasized that “the
Government bears the burden at a suppression hearing where, as here, the search or
seizure was conducted without a warrant.” 791 F.3d 424, 432 n.4 (3d Cir. 2015). The
Third Circuit consequently declined the government’s invitation to “indulge in
hypotheticals and interpret alleged ambiguity in the District Court’s findings in favor
of the party with the burden of proof—the Government.” Id. In Lowe, officers
responding to an anonymous tip about a “black male wearing a gray hoodie with a
gun in his waistband” in a high-crime area precipitously seized the defendant without
reasonable suspicion. Id. at 434–35. As the Third Circuit observed, the officers had
“many tools at their disposal to gather additional evidence” before the seizure,
including “investigation, surveillance, and even approaching the suspect without a
show of authority to pose questions and to make observations about the suspect’s
conduct and demeanor.” Id. at 436. Because they failed to use available tools to
develop reasonable suspicion before the seizure, the fruit of the seizure should have
been suppressed. Id.

28

Lowe relied in part on an earlier Third Circuit case, United States v. Roberson, 90
F.3d 75 (3d Cir. 1996), which is factually similar to Mr. Gaines’s case. In Roberson,
an anonymous 911 caller described a “heavy-set, black male wearing dark green
pants, a white hooded sweatshirt, and a brown leather jacket” at a drug “hot spot,”
and alleged he was selling drugs. Id. at 75. The police stopped and frisked a man at
the location fitting the caller’s description, despite seeing no drug activity. Even
though “the caller could have been looking out his window . . . at the time of his 911
call,” the Third Circuit held that the call did not provide reasonable suspicion of drug
activity absent independent corroboration of that claim. Id. at 79–80.
Other jurisdictions have similarly emphasized the need to corroborate claims of
illegality made by anonymous (or identified but untested) tipsters. See, e.g., United
States v. Massenburg, 654 F.3d 480, 487 (4th Cir. 2011) (“even a ‘nearly
contemporaneous report’ of a drug transaction the tipster reportedly saw was
unreliable in the absence of ‘[s]ome corroboration,’ since ‘a fraudulent tipster can
fabricate her basis of knowledge’”) (citations omitted); United States v. Lopez, 907
F.3d 472, 481, 483 (7th Cir. 2018) (absent corroboration, tip did not provide
reasonable suspicion; “[i]nstead of doing the police work required to substantiate the
tip, the officers pounced as soon as they saw Lopez leave his garage”); State v. Z.U.E.,
315 P.3d 1158, 1168 (Wash App. Div. 2 2014) (where officers “did not corroborate the
presence of actual or potential criminal activity,” “observations of innocuous facts
were insufficient to support an investigatory stop”); Stinson v. State, 117 So. 3d 859,
864 (Fla. App. Dist. 4 2013) (where the “sole basis for the officer’s stop and detention

29

of the defendant was the anonymous tip, which the officer was unable to corroborate,”
“the totality of the facts and circumstances did not provide reasonable suspicion to
stop and detain the defendant”); State v. Hneidy, 510 S.W.3d 458 (Tex. App. San
Antonio 2013) (observations of identifying information insufficient to corroborate
tipster’s claim of illegality; where officer testified “that he did not corroborate any of
the information that was relayed to him by dispatch,” and absent any other sufficient
basis, traffic stop not supported by reasonable suspicion).
The question of when an anonymous tip provides reasonable suspicion will
continue to arise with frequency in both state and federal courts. This Court’s
guidance is necessary to ensure that anonymous tips are analyzed for reliability and
corroboration with consistency across jurisdictions.
6. This case is an excellent vehicle for analyzing anonymous tips.
This case is an excellent vehicle for analyzing anonymous tips. It involves a
number of factors that are common in anonymous-tip cases: a 911 call; questions of
reliability and corroboration; and an alleged “high crime” area, to name a few. The
question presented was fully preserved below, and there is no procedural
impediment to this Court’s consideration.
The fact that the Tenth Circuit’s decision is unpublished does not weigh against
granting this petition. Publication is not a prerequisite to review or a reliable
measure of a decision’s importance. See, e.g., Carter v. United States, 530 U.S. 255
(2000) (reviewing unpublished circuit court decision); Los Angeles County,
California v. Rettele, 550 U.S. 609 (2007) (same); National Archives and Records
Admin. v. Favish, 541 U.S. 157 (2004) (same); Cooper Industries, Inc. v. Leatherman
30

Tool Group, Inc., 532 U.S. 424 (2001) (same); Eastern Assoc. Coal Corp. v. United
Mine Workers of America, Dist. 17, 531 U.S. 57 (2000) (same); Wisconsin Right to
Life, Inc. v. F.E.C., 546 U.S. 410 (2006) (reviewing unpublished three-judge district
court decision); Kaupp v. Texas, 538 U.S. 626 (2003) (reviewing unpublished Texas
Court of Appeals decision); Ewing v. California, 538 U.S. 11 (2003) (reviewing
unpublished California Court of Appeal decision).
Here, the government thought that the Tenth Circuit’s decision was important
enough to move for its publication. Gov’t Mot. to Publish filed 06/10/2021. In its
motion, the government described the decision as “synthesiz[ing] the vast and
sometimes unwieldy body of caselaw relating to the reliability of anonymous tips in
the reasonable suspicion analysis, referring to cases from the Supreme Court, [the
Tenth Circuit], and other federal circuit courts of appeal, in a thorough and
insightful opinion.” Id. at 2-3. The government further predicted that “[f]uture
defendants, prosecutors, district courts, and litigants before this Court will
undoubtedly devote considerable time, energy, and resources responding to similar
issues decided by the panel in this case and interpreting the cases interpreted by
the panel in this case.” Id. at 3.
While the Tenth Circuit denied the government’s motion, its rules permit the
citation of unpublished decisions “for their persuasive value.” 10th Cir. R. 32.1(A).
Indeed, the Tenth Circuit itself “generally follows that principle, looking in
appropriate circumstances to an unpublished opinion if its rationale is persuasive
and apposite to the issue presented.” Noreja v. Commissioner, SSA, 952 F.3d 1172,

31

1176 (10th Cir. 2020) (citing examples). The government will undoubtedly rely on
Gaines as persuasive authority in future cases, and district courts will undoubtedly
endeavor to harmonize their decisions with Gaines. This latter prediction has
already come to pass. See United States v. Dye, No. 18-20094-01-DDC, 2021 WL
2515029 (D. Kan. June 18, 2021) (“Gaines is unpublished and not controlling, but it
extensively analyzed a set of facts that resemble certain elements of Mr. Dye’s case.
The court thus finds the case useful.”).
Finally, Mr. Gaines would not have been convicted had his motion to suppress
been granted. At trial, the government relied almost entirely on the evidence
discovered as a result of law enforcement’s August 24, 2015 seizure of Mr. Gaines to
prove the drug and gun charges against Mr. Gaines. See, e.g., Appeal No. 17-3270,
R2.144 at 77-81 (officer describing drugs found in black bag thrown on roof); id. at
144-47 (officer describing drugs found in Cadillac); id. at 189-91 (officer describing
gun found in Cadillac); Appeal No. 17-3270, R2.145 at 40-66 (forensic scientist
identifying weight and types of drugs found in black bag and Cadillac); Appeal No.
17-3270, R2.146 at 122-154 (expert opining that quantity of drugs found in black
bag and Cadillac indicated distribution as opposed to personal use, and discussing
relationship of guns to drug distribution). The government did not, for instance,
present any witnesses who claimed to have either bought drugs from Mr. Gaines or
seen Mr. Gaines handle the gun, or any confession from Mr. Gaines. Instead, the
main factual dispute at trial was whether the Cadillac and the items in it belonged
to Mr. Gaines. See, e.g., Appeal No. 17-3270, R2.146 at 5-19 (registered owner of car

32

testifying to Mr. Gaines’s use of the Cadillac and denying ownership of items seized
on August 24, 2015). In other words, the government would not have had a case
without the items seized by law enforcement on August 24, 2015. If this Court
grants certiorari and reverses the Tenth Circuit, Mr. Gaines’s conviction will be
vacated and he will be released.
No future case will be better positioned for this Court to revisit anonymous tips.
This Court should grant this petition.
CONCLUSION
For the above reasons, this petition for a writ of certiorari should be granted.
Respectfully submitted,
MELODY BRANNON
Federal Public Defender

PAIGE A. NICHOLS
ASSISTANT FEDERAL PUBLIC DEFENDER
Counsel of Record
KANSAS FEDERAL PUBLIC DEFENDER
117 SW 6th Ave, Ste 200
Topeka, Kansas 66603
Phone: (785) 232-9828
Email: paige_nichols@fd.org
Counsel for Petitioner

33

Appellate Case: 19-3177

Document: 010110526895

FILED Page: 1
Date Filed: 05/25/2021
United States Court of Appeals
Tenth Circuit

UNITED STATES COURT OF APPEALS
TENTH CIRCUIT

May 25, 2021

Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,

No. 19-3177
(D.C. No. 2:15-CR-20078-JAR)
(D. Kan.)

v.
DESMOND S. GAINES,
Defendant - Appellant.

ORDER AND JUDGMENT*
Before HARTZ, KELLY, and HOLMES, Circuit Judges.

In September 2017, a jury convicted Desmond S. Gaines of five federal offenses
involving illegal drugs and a firearm. Before his trial began, Mr. Gaines moved to
suppress certain evidence as the fruit of an unlawful seizure. The district court denied the
motion. It concluded that Mr. Gaines’s initial encounter with police—which led to the
discovery of the illegal drugs and firearm—was consensual and not a seizure. The
encounter itself was precipitated by an anonymous 911 tip.

This order and judgment is not binding precedent, except under the
doctrines of law of the case, res judicata, and collateral estoppel. It may be cited,
however, for its persuasive value consistent with Federal Rule of Appellate Procedure
32.1 and Tenth Circuit Rule 32.1.
*

Appendix A
1a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 2

In a prior appeal, we reversed. We held that Mr. Gaines’s initial encounter with
police was a Fourth Amendment seizure and not consensual. As a result, we vacated Mr.
Gaines’s conviction and remanded so the district court could determine whether the
seizure was justified by reasonable suspicion. On remand, the district court concluded the
police officers had a reasonable suspicion to seize Mr. Gaines. It again denied his motion
to suppress evidence and reinstated the original judgment.
The issue now before us is whether the district court erred in concluding that
reasonable suspicion existed to seize Mr. Gaines. We hold that the court did not err.
Therefore, exercising jurisdiction under 28 U.S.C. § 1291, we affirm.
I
One morning in August 2015, an anonymous tipster called 911 to report that a man
was selling phencyclidine, or PCP, near the Wilhelmina Gill Center and the Frank
Williams Center in downtown Kansas City, Kansas. The Wilhelmina Gill Center houses
a food kitchen; the Frank Williams Center offers resources to the homeless. The 911 call
lasted nearly two-and-a-half minutes. At the beginning of the call, the tipster indicated
that he was in downtown Kansas City near the two centers.1 Then he said, “we have a
suspect in all red clothing selling juice,” i.e., PCP. Gov’t Ex. 1 at 0:10–0:14 (911 Call).

The district court refers to the tipster using the pronouns for the male
gender (e.g., “he”), even though it does not appear to have explicitly found that the tipster
was male. We follow suit. Insofar as the court’s use of male-gender pronouns amounts
to a tacit finding that the tipster was male—based on our review of the audio recording of
the tipster’s 911 call—this finding would not be clearly erroneous.
1

2
2a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 3

The 911 operator asked about the alleged suspect’s race and the tipster replied, “light
skinned black.” Id. at 0:21–0:23. The tipster continued: “I don’t know what kind of car
he’s driving today, but he’s down here at the Gill Center, and he has on all red, red hat,
red shirt, big red shorts.” Id. at 0:25–0:34. According to the tipster, the man in red “just
made about 20 dollars.” Id. at 0:46–0:49.
The 911 operator asked for the exact address where the tipster and man in red were
located. “I don’t even know,” the tipster replied. Id. at 0:53–0:54. But then he said, “let
me go inside and ask.” Id. at 0:59–1:01. It is not clear where the tipster went, but he
subsequently confirmed that his location was “645 Nebraska.” Id. at 1:10–1:17. The 911
operator then asked where the officers should go when they arrived. The tipster said, “to
the parking lot.” Id. at 1:22–1:23. The operator asked what kind of car the man in red
was driving. The tipster again said “I don’t know,” but volunteered to try to find out. Id.
at 1:34–1:39. The tipster then stated, “I’m watching him right now,” id. at 1:40–1:41, and
said that the man in red was “still not going to his car yet,” id. at 2:02–2:05, but was
instead “just standing on the corner,” id. at 2:07–2:10. Near the end of the call the tipster
commented, “after this guy we have only one more supplier, and that’s it.” Id. at
1:55–2:00.
Shortly before 10:00 a.m., two Kansas City police officers—one male and one
female—responded to the call. While approaching the Wilhelmina Gill Center, the male
officer saw a man in the parking lot who matched the description provided by the tipster.
3
3a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 4

The man was Mr. Gaines. As Mr. Gaines entered a white Cadillac, the officers received a
call over their police radio from an off-duty police officer who had been working at the
Frank Williams Center that morning. The off-duty officer had kept his police radio on
and heard the officers dispatched in response to the 911 call. Earlier that morning, he had
noticed a man dressed in all red in the Frank Williams Center parking lot. The off-duty
officer radioed to the responding officers, “that’s him in that white Cadillac.” R., Vol. I,
at 137 (Test. of Mark Wilcox, dated Mar. 8, 2017).
The officers parked close to the Cadillac that Mr. Gaines occupied and turned on
their emergency lights. Both officers exited their vehicles. Mr. Gaines did the same and
shut his door. Mr. Gaines asked the male officer what he was doing. The officer replied
that he had received a call that a person matching Mr. Gaines’s description was selling
drugs in the parking lot. Mr. Gaines said it was not him. The male officer then asked Mr.
Gaines for identification. Mr. Gaines said it was in his car trunk and reopened the
Cadillac’s driver’s side door to open the trunk. With the door and trunk open, the male
officer smelled a strong chemical odor coming from the vehicle. The officer believed it
was PCP. He also noticed an open alcohol container in the front console—an arrestable
offense.
The male officer informed Mr. Gaines that he would have to handcuff and detain
him for the open container. As the officer tried to handcuff Mr. Gaines, he quickly pulled
away, grabbed a black bag from the driver’s side floorboard, shoved the officer, and ran
4
4a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 5

away. The responding officers chased Mr. Gaines on foot and eventually apprehended
him. They also recovered the black bag. It contained PCP, cocaine, and marijuana.
Later, police discovered a black handgun and more cocaine in Mr. Gaines’s Cadillac .
A federal grand jury indicted Mr. Gaines on five counts involving illegal drugs and
a firearm.1 Mr. Gaines moved to suppress the drugs and firearm evidence, arguing it was
the fruit of an unlawful seizure. The district court denied the motion. It held Mr.
Gaines’s initial encounter with police officers—from the time the officers first
approached his car to when one officer saw the open alcohol container—was consensual.
The case proceeded to trial and a jury convicted Mr. Gaines on all five counts. The
district court sentenced Mr. Gaines to 180 months’ imprisonment and eight years of
supervised release.
Mr. Gaines appealed. We reversed and held that the initial encounter between Mr.
Gaines and the police—before the officer spotted the open alcohol container—was a
Fourth Amendment seizure. We noted that the seizure “would have been permissible if
the police had a reasonable ground to suspect Mr. Gaines of a crime,” but the district

The five counts listed in the indictment were (1) possession with intent to
distribute twenty-eight grams or more of crack cocaine, in violation of 28 U.S.C.
§ 841(a)(1) and (b)(1)(B)(iii); (2) possession with intent to distribute marijuana, in
violation of 28 U.S.C. § 841(a)(1) and (b)(1)(D); (3) possession with intent to distribute
PCP, in violation of 28 U.S.C. § 841(a)(1) and (b)(1)(C); (4) possession of a firearm in
furtherance of a drug-trafficking crime, in violation of 18 U.S.C. § 924(c); and
(5) possession of a firearm as a convicted felon, in violation of 18 U.S.C. § 922(g)(1) and
18 U.S.C. § 924(a)(2). R., Vol. I, at 26–28 (Indictment, filed Sept. 2, 2015).
1

5
5a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 6

court did not address “the reasonableness of the police’s suspicion.” United States v.
Gaines, 918 F.3d 793, 802 (10th Cir. 2019). We declined to opine on this matter in the
first instance. Instead, we reversed the district court’s order denying Mr. Gaines’s
suppression motion and remanded so the district court could consider whether the officers
had a reasonable suspicion to justify the seizure. Id. at 803.
On remand, the district court found reasonable suspicion existed to seize Mr.
Gaines. The court’s conclusion rested in part on factors similar to those highlighted in
Navarette v. California, 572 U.S. 393, 399–400 (2014), where the Supreme Court upheld
an investigatory stop based on an anonymous tip. Specifically, the district court noted
that “the caller told the operator where he was, [ ] stayed on the phone for over two
minutes, and [ ] answered every question that was put to him, including answering the
operator honestly that he did not know what type of car [the] [d]efendant was driving.”
R., Vol. I, at 238 (Mem. and Order, dated Aug. 9, 2019). Additionally, the court credited
the responding officers’ first-hand knowledge of drug-related activity around the
Wilhelmina Gill Center, and the off-duty officer’s observations. Taken together, the
court held these facts provided responding officers with reasonable suspicion to conduct
an investigatory stop. The court, therefore, denied Mr. Gaines’s motion to suppress and
reinstated its original judgment. This appeal followed.
II
The Fourth Amendment protects against “unreasonable searches and seizures.”

6
6a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 7

U.S. CONST. amend. IV. However, this mandate does not prevent police officers from
making a brief investigatory stop of a person when they have “a particularized and
objective basis for suspecting the particular person stopped of criminal activity.” United
States v. Cortez, 449 U.S. 411, 417–18 (1981); see also United States v. McHugh, 639
F.3d 1250, 1255 (10th Cir. 2011) (noting that an investigatory stop is justified “if the
specific and articulable facts and rational inferences drawn from those facts give rise to a
reasonable suspicion a person has or is committing a crime” (quoting United States v.
DeJear, 552 F.3d 1196, 1200 (10th Cir. 2009))). The “reasonable suspicion” needed to
justify a stop depends “upon both the content of information possessed by police and its
degree of reliability.” Alabama v. White, 496 U.S. 325, 330 (1990). We look to “the
totality of the circumstances—the whole picture” to determine whether police have a
reasonable suspicion. Cortez, 449 U.S. at 417; see also United States v. Sanchez, 519
F.3d 1208, 1213 (10th Cir. 2008) (explaining that we assess the “reasonableness of the
officer’s suspicions . . . by an objective standard taking the totality of the circumstances
and information available to the officers into account” (quoting United States v. Johnson,
364 F.3d 1185, 1189 (10th Cir. 2004))).
A mere hunch is not enough; nevertheless, a reasonable suspicion requires
“considerably less than proof of wrongdoing by a preponderance of the evidence,” and
“obviously less” than the proof needed for probable cause. United States v. Sokolow, 490
U.S. 1, 7 (1989); see also United States v. Chavez, 660 F.3d 1215, 1221 (10th Cir. 2011)

7
7a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 8

(“Although ‘reasonable suspicion requires [an] officer to act on something more than an
inchoate and unparticularized suspicion or hunch, the level of suspicion required . . . is
considerably less than proof by a preponderance of the evidence or that required for
probable cause.’” (quoting McHugh, 639 F.3d at 1255–56)).
“These principles apply with full force to investigative stops based on information
from anonymous tips.” Navarette, 572 U.S. at 397. The Supreme Court has struck a
delicate balance on when an anonymous tip can provide a reasonable suspicion for an
investigatory stop. The Court has noted that “an anonymous tip alone seldom
demonstrates the informant’s basis of knowledge or veracity,” and therefore seldom
supplies reasonable suspicion. White, 496 U.S. at 329. Yet, the Court nonetheless has
acknowledged that “under appropriate circumstances, an anonymous tip can demonstrate
‘sufficient indicia of reliability to provide reasonable suspicion to make [an] investigatory
stop.’” Navarette, 572 U.S. at 397 (quoting White, 496 U.S. at 327); see also United
States v. Madrid, 713 F.3d 1251, 1258 (10th Cir. 2013) (“A confidential tip may justify
an investigatory stop if under the totality of the circumstances the tip furnishes both
sufficient indicia of reliability and sufficient information to provide reasonable suspicion
that criminal conduct is, has, or is about to occur.” (quoting United States v. LeosQuijada, 107 F.3d 786, 792 (10th Cir.1997))).
The Supreme Court has identified several key indicia of reliability when it comes
to anonymous tips. In Alabama v. White, a tipster told police that a woman would drive

8
8a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 9

from a specific apartment building to a specific motel in a specific kind of car, while
transporting cocaine. The police corroborated the benign details—the apartment, the
motel, and the car type—before making a stop. The Supreme Court held that the
corroboration of these details made the tip sufficiently reliable to justify a stop. The
Court emphasized, however, that the corroborated details related “not just to easily
obtained facts and conditions existing at the time of the tip, but to future actions of third
parties ordinarily not easily predicted.” White, 496 U.S. at 332 (quoting Illinois v. Gates,
462 U.S. 213, 245 (1983)). If a tipster can accurately predict an individual’s future
behavior, it implies that the tipster has “a special familiarity with [the individual’s]
affairs” and, in particular, “access to reliable information about that individual’s illegal
activity.” Id.
But if a tip “provide[s] no predictive information and therefore le[aves] the police
without means to test the informant’s knowledge or credibility,” it will often not justify an
investigatory stop. Florida v. J.L., 529 U.S. 266, 271 (2000). This was true of the tip in
Florida v. J.L. In that case, the tipster merely said that a young Black man who was
wearing a plaid shirt and standing at a particular bus stop was carrying a gun. All the
police had was “the bare report of an unknown, unaccountable informant who neither
explained how he knew about the gun nor supplied any basis for believing he had inside
information about J.L.” Id. In holding that the police lacked reasonable suspicion to stop
and frisk the defendant—who was wearing a plaid shirt—the Court noted that an

9
9a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 10

“accurate description of a subject’s readily observable location and appearance” is
reliable only in a “limited sense”: it will “help the police correctly identify the person
whom the tipster means to accuse.” Id. at 272. However, such a tip “does not show that
the tipster has knowledge of concealed criminal activity.” Id. To help establish
reasonable suspicion, a tip must be “reliable in its assertion of illegality, not just in its
tendency to identify a determinate person.” Id.
But, corroborated predictive information—of the kind present in White, but not in
J.L.—is not necessarily required for an anonymous tip to support a reasonable-suspicion
finding. In the case that the district court here relied on, Navarette, a tipster called 911 to
report that a truck had just run her off the road. The tipster supplied no predictive
information. Yet, she provided the truck’s make, model, color, and license plate number.
In holding that the tip had sufficient indicia of reliability, and thus supplied a reasonable
suspicion for an investigatory stop, the Court focused on three factors. First, the caller
“necessarily claimed eyewitness knowledge of the alleged dangerous driving,” precisely
because the caller was run off of the road by the dangerous driver. Navarette, 572 U.S.
at 399. Second, “the caller reported the incident soon after she was run off the road.” Id.
As to this point, the Court explained that this sort of “contemporaneous report has long
been treated as especially reliable.” Id. This is so because, under the law of evidence,
“statements about an event and made soon after perceiving that event are especially
trustworthy because ‘substantial contemporaneity of event and statement negate the

10
10a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 11

likelihood of deliberate or conscious misrepresentation.’” Id. at 400 (quoting FED. R.
EVID. 803(1) advisory committee’s note). Third, the caller used the 911 system. Because
a 911 call “has some features that allow for identifying and tracing callers” it provides
“some safeguards against making false reports with immunity.” Id.
Furthermore, without reference to predictive information, we, too, have identified
certain factors that often suggest the reliability of an anonymous tip. In United States v.
Chavez, we succinctly summarized the most important factors we usually consider:
Although no single factor is dispositive, relevant factors include:
(1) whether the informant lacked “true anonymity” (i.e., whether the
police knew some details about the informant or had means to discover
them); (2) whether the informant reported contemporaneous, firsthand
knowledge; (3) whether the informant provided detailed information
about the events observed; (4) the informant’s stated motivation for
reporting the information; and (5) whether the police were able to
corroborate information provided by the informant.
Chavez, 660 F.3d at 1222. Though we place a premium on information related “to future
actions of third parties [which are] ordinarily not easily predicted,” such details are not
necessarily required to render an anonymous tip reliable. United States v. Hauk, 412 F.3d
1179, 1189 (10th Cir. 2005) (quoting Gates, 462 U.S. at 245).
A tipster is not truly anonymous if he “provides sufficient details regarding his
identity to render him readily identifiable by police,” such as where he works or lives.
United States v. Brown, 496 F.3d 1070, 1076 (10th Cir. 2007). Contemporaneous,
firsthand knowledge also differs from that which is acquired “through the report of a third
party or reported sometime later than the described events.” Madrid, 713 F.3d at
11
11a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 12

1260–61; see also Brown, 496 F.3d at 1076 (“We consider it another important indicium
of reliability that the caller claimed firsthand knowledge of the alleged conduct.”). We
likewise credit “detailed information about the events [a tipster] witnessed.” Chavez, 660
F.3d at 1222. Additionally, motivations bolster reliability when they “bespeak an
ordinary citizen acting in good faith,” particularly to protect others. United States v.
Copening, 506 F.3d 1241, 1247 (10th Cir. 2007). Lastly, police corroboration of any
information provided by a tipster is also potentially relevant. See Brown, 496 F.3d
at 1078–79 (deeming even “limited police corroboration of facts provided by the caller”
relevant to the determination that “the 911 caller [ ] bore sufficient indicia of reliability to
generate a reasonable suspicion”).
III
We “review de novo the ultimate question of reasonableness under the Fourth
Amendment.” United States v. McNeal, 862 F.3d 1057, 1061 (10th Cir. 2017). In doing
so here, we conclude the officers had a reasonable suspicion to seize Mr. Gaines for an
investigatory stop. We first consider the relevant indicia of reliability displayed by the
anonymous tipster’s 911 call. Then, after acknowledging the absence of predictive
information in the tip, we explain why it supported the district court’s finding of a
reasonable suspicion. We then distinguish the tip in this case from the one in Florida v.
J.L. Finally, we address why the drug-related activity near the area of Mr. Gaines’s arrest
is relevant to our reasonable-suspicion inquiry.

12
12a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 13

A
We begin with the three indicia of reliability highlighted in Navarette: that is,
(1) “claimed eyewitness knowledge of” the illegal activity, (2) a contemporaneous
report—“soon after”—the occurrence of the activity, and (3) the “use [of] the 911
emergency system.” Navarette, 572 U.S. at 399–400.
As to the first factor, the district court found that the anonymous tipster “implie[d]
that he personally observed [Mr. Gaines’s] drug sale.” R., Vol. I, at 236. This finding is
not clearly erroneous. When the 911 call began, the tipster identified his location and
then stated, “we have a suspect in all red clothing selling juice.” Gov’t Ex. 1
at 0:10–0:14. And, significantly supportive of the district court’s finding, the tipster also
reported that the man in red “just made about 20 dollars,” id. at 0:46–0:49 (emphasis
added), implying that the tipster possessed eyewitness knowledge of an illegal drug sale.2

We recognize that, in some of our other cases, the tipster seemingly
communicated in more explicit terms eyewitness knowledge of unlawful activity. See,
e.g., Brown, 496 F.3d at 1076 (“The caller in this case specifically told the 911 operator
that he was present when an armed man entered [a woman’s] apartment and that he saw
the man’s gun.”); Copening, 506 F.3d at 1247 (noting that “the caller told dispatch he saw
the . . . weapons incident”). But we conclude that the district court’s finding that the
tipster “implie[d] that he personally observed [Mr. Gaines’s] drug sale,” R., Vol. I, at 236,
means the first Navarette factor “weigh[s] in favor of the caller’s veracity,” Navarette,
572 U.S. at 400—even if it does not do so strongly. Cf. Brown, 496 F.3d at 1078–79
(noting that even though there was “limited police corroboration of facts provided by the
caller” it was relevant to the determination that “the 911 caller here bore sufficient indicia
of reliability to generate a reasonable suspicion”). Furthermore, we underscore that the
reasonable-suspicion determination is grounded on the totality of the circumstances and
no one factor—including those highlighted in Navarette—is determinative.
2

13
13a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 14

Furthermore, the other two Navarette factors are both clearly satisfied here. The
tipster undoubtedly made a “contemporaneous report” of Mr. Gaines’s activities, both
non-criminal and criminal alike. Indeed, most of the tipster’s statements appeared to
provide a real-time report of Mr. Gaines’s activities: “I’m watching him right now,” the
tipster said. Id. at 1:40–1:41. “Yeah, he’s still walking up the hill.” Id. at 1:49–1:50.
“He’s just standing on the corner.” Id. at 2:07–2:10. And, as noted, the tipster reported
that “[h]e just made about 20 dollars,” implying that it was from a drug sale. Id.
at 0:46–0:49. We have ample reason, then, to conclude that the “substantial
contemporaneity of event and statement negate the likelihood of deliberate or conscious
misrepresentation.” Navarette, 572 U.S. at 400 (quoting FED. R. EVID. 803(1) advisory
committee’s note); see also United States v. Conner, 699 F.3d 1225, 1229 (10th Cir 2012)
(“[T]he caller’s immediate, firsthand knowledge added to the reliability of his
statements.”). We thus conclude that the second Navarette factor here “weigh[s] in favor
of the caller’s veracity.” Navarette, 572 U.S. at 400
Finally, the tipster called 911 to report his observations. Again, this factor is
important because a 911 call “has some features that allow for identifying and tracing
callers, and thus provide some safeguards against making false reports with immunity.”
Navarette, 572 U.S. at 400. The Supreme Court noted two such safeguards in Navarette:
a recorded call “provides victims with an opportunity to identify the false tipster’s voice
and subject him to prosecution,” and callers cannot “block call recipients from obtaining

14
14a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 15

their identifying information.” Id. at 400–01. We do not suggest that “tips in 911 calls
are per se reliable.” Navarette, 572 U.S. at 401. But the tipster’s use of the 911 system is
“one of the relevant circumstances that, taken together, justified the officer[s’] reliance on
the information.” Navarette, 572 U.S. at 401.
On the whole, then, the three indicia of reliability highlighted in Navarette favor
concluding that the anonymous tip provided reasonable suspicion justifying the stop.
Looking beyond Navarette, other factors here also demonstrate the tipster’s reliability.
First, as we have framed the matter, the tipster was not truly anonymous. As
previously mentioned, he used the 911 system. But that is not all. He confirmed the
precise address of his physical location. See Madrid, 713 F.3d at 1260 (observing that
“giving the address [of where the crime took place and of the caller’s own location] was
at least an ‘indicium of reliability’” (quoting Robinson v. Howes, 663 F.3d 819, 829 (6th
Cir. 2011))); cf. United States v. Williams, 403 F.3d 1188, 1194 n.5 (10th Cir. 2005)
(noting that an anonymous restaurant patron who reported seeing another patron with a
firearm was not truly anonymous because the tip placed the tipster at the particular
restaurant at a particular time). Furthermore, the tipster here spoke for over two minutes
in a known location, making it likelier that police could unearth witnesses who might help
identify him. Taken together, the police quite possibly (if not likely) had “sufficient
details” to “render [the tipster] readily identifiable.” Brown, 496 F.3d at 1076.
Moreover, throughout the call, the tipster answered every question asked by the

15
15a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 16

operator. For example, he took time to retrieve the exact address of his location when
asked. The tipster also did not obviously withhold any information. Indeed, he appeared
to answer honestly that he did not know what type of car Mr. Gaines was driving. And,
importantly, the tipster never declined to give his name. Instead, the 911 operator did not
ask for it. This, too, is an indicium of reliability. See Madrid, 713 F.3d at 1260 (deeming
it significant that “the 911 operator never asked the caller for his name or other
identifying information and there [was] no reason to believe he would not have provided
this information if requested”); United States v. Torres, 534 F.3d 207, 212 (3d Cir. 2008)
(noting that although the tipster never gave his name, “he was not asked to do so”).
We also have often inquired into a tipster’s motivations, and here “the 911
transcripts provide no indication that the caller had iniquitous intentions.” Copening, 506
F.3d at 1247. In particular, it strikes us as improbable that an individual intending to
falsely attribute criminal conduct to another would speak to a 911 operator in the kind of
measured and circumspect manner displayed by the tipster here—who, for example,
freely admitted when he did not know the answer to the 911 operator’s questions. The
length of the call is also relevant: the tipster did not rush to lodge a hasty false allegation
and dash off unidentified. See Johnson, 364 F.3d at 1191 (crediting the length of an
anonymous tipster’s call as an indicium of reliability). If anything, the 911 call suggests
that the tipster possibly acted with an commendable motive—seeking to rid the area
around the Wilhelmina Gill Center of drug-related activity. Specifically, near the end of

16
16a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 17

the call the tipster said, “And after this guy, we only have one more supplier, and that’s
it.” Gov’t Ex. 1 at 1:55–2:00. This comment would appear to “bespeak an ordinary
citizen acting in good faith.” Copening, 506 F.3d at 1247. At the very least, nothing in
the call suggests that the tipster had a malicious motive.
Moreover, throughout the call, the tipster provided detailed information about Mr.
Gaines’s appearance, location, and movements. We have said that when a tipster
“provide[s] detailed information about the events he [is] observing,” it is “another
indicium of reliability.” Madrid, 713 F.3d at 1261; see also Conner, 699 F.3d at 1230
(“The number and precision of [a tipster’s] details added to the tip’s reliability.”). We
value detailed tips because “[o]verly generic tips, even if made in good faith, could give
police excessive discretion to stop and search large numbers of citizens.” Johnson, 364
F.3d at 1191. The anonymous tip in this case “did not provide the officers with excessive
discretion to stop and search a large number of citizens.” Sanchez, 519 F.3d at 1214.
Instead, the tipster identified the suspect’s physical appearance and location with a fairly
high degree of specificity. In that way, because “the description’s considerable detail
significantly circumscribed the number of people police could have stopped in reliance on
it,” we deem the tip’s details another indicium of reliability. Johnson, 364 F.3d at 1191.
B
We acknowledge the tipster did not provide the kind of predictive information that
often renders an anonymous tip reliable. In particular, we cannot say that the information

17
17a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 18

provided here described “future actions of third parties ordinarily not easily predicted.”
White, 496 U.S. at 332 (quoting Gates, 462 U.S. at 245). Relatedly, at first blush, the tip
here might seem similar to the tip in Florida v. J.L.—the one the Supreme Court held did
not supply reasonable suspicion for a stop. In this case and in J.L., the tipster
communicated to law enforcement that a person of a certain description, wearing certain
clothing, was at a particular location doing something illegal. However, we nevertheless
conclude that the tip here significantly supports a reasonable-suspicion finding and that
J.L. is distinguishable.
First, the Supreme Court has never indicated that an anonymous tipster must
provide corroborated predictive information to support a finding of reasonable suspicion.
See Parker v. Chard, 777 F.3d 977, 980 (8th Cir. 2015) (noting that in J.L. and White the
Supreme Court “did not hold that corroboration of predictive elements is the exclusive
measure of a tip’s reliability”). After all, this inquiry must take into account the totality of
the circumstances, and not solely whether a tipster supplies predictive information that
police corroborate.
Second, since Florida v. J.L., we have repeatedly suggested that police
corroboration of even non-predictive information provided by a tipster—especially in
conjunction with other relevant factors—can be indicative of reliability. See, e.g., Hauk,
412 F.3d at 1189 (“Corroboration of information other than predictive facts, such as the
basis of the informant’s knowledge, the circumstances under which it was obtained, and

18
18a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 19

the amount of detail about the alleged criminal activity, can also justify reliance on an
anonymous tip in appropriate circumstances.”); Conner, 699 F.3d at 1230 (finding an
anonymous tipster reliable when police “discovered the black SUV in the precise location
provided by the caller” and “spotted a light-skinned black male in a fuzzy hunting hat,
just as the caller had described”); Chavez, 660 F.3d at 1222 (crediting as an indicium of
reliability the fact that officers verified “that there was a black pickup truck and a white
Cadillac in the parking lot” specifically identified by the tipster); Johnson, 364 F.3d
at 1191 (emphasizing that the tipster’s “descriptions of [the defendants’] appearance and
location” were confirmed by an officer’s observations). This does not mean that,
standing alone, law enforcement corroboration of such non-predictive information can
“be used to confirm the reliability of an anonymous informant for the purpose of
establishing . . . reasonable suspicion.” United States v. Tuter, 240 F.3d 1292, 1297 (10th
Cir. 2001). But, in light of the totality of the circumstances, it is still significant that the
police corroborated non-predictive information provided by the tipster—namely, that a
light-skinned Black man in all red clothing was located at a particular parking lot.3

On this point, we also find it worth mentioning—though it is admittedly a
factor of modest weight—that the off-duty officer radioed to the responding officers
when they arrived on the scene, “that’s him in that white Cadillac.” R., Vol. I, at 137.
The off-duty officer had seen a man fitting Mr. Gaines’s description at the Frank
Williams Center parking lot that morning. Of course, the off-duty officer corroborated
neither predictive information nor criminal activity. But his statement nonetheless helped
corroborate the identity of “the person whom the tipster mean[t] to accuse.” J.L., 529
U.S. at 272.
3

19
19a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 20

Furthermore, we conclude that the tip at issue in Florida v. J.L.—upon close
inspection—is significantly different from the one here. Our prior discussion highlights
why. The tipster in this case used the 911 system and was not truly anonymous. Cf. J.L.,
529 U.S. at 268 (recounting as to J.L.’s tip, that “[s]o far as the record reveals, there is no
audio recording of the tip, and nothing is known about the informant”). Moreover, the
tipster here contemporaneously reported his first-hand observations. Cf. id. (noting, as to
J.L.’s tip, that “[s]ometime after the police received the tip—the record does not say how
long—two officers were instructed to respond” (emphasis added)). Furthermore, the
tipster in this case made the tip from a known location. Cf. id. at 270 (noting that the tip
in J.L. came from “an unknown location”). Also, adding to his credibility, the tipster in
this case withheld no information, appeared to have a benign motive, and answered all the
questions put to him (if he could) over a somewhat lengthy call. These factors were not
available to support the tipster’s credibility in J.L.; indeed, “nothing [was] known about
the [tipster].” Id. at 269. Accordingly, J.L. is distinguishable and does not lead us to alter
our conclusion regarding the reliability of the tip here.
Our reasonable-suspicion inquiry is a holistic one—which takes account of the
totality of the circumstances. No single consideration is determinative. Viewed through
this all-encompassing lens, the relevant factors in the anonymous-tipster inquiry here
weigh in favor of a determination that the 911 call was sufficiently reliable to support an
investigatory stop. This is so despite the absence of predictive information.

20
20a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 21

C
Importantly, the district court’s reasonable-suspicion determination did not solely
rest on evidence of the anonymous tip. In addition to the tipster’s call, evidence of drugrelated activity in the area of the Wilhelmina Gill Center was a legitimate contributing
factor in creating a reasonable suspicion for the investigatory stop.
Mr. Gaines’s mere “presence in a high-crime area is not, ‘standing alone,’ enough
to provide reasonable suspicion.” United States v. Dennison, 410 F.3d 1203, 1208 (10th
Cir. 2005) (quoting Illinois v. Wardlow, 528 U.S. 119, 124 (2000)). However, “the fact
that conduct occurs in an area known for criminal activity [is an] appropriate factor[] to
consider in determining whether reasonable suspicion exists.” DeJear, 552 F.3d at 1201;
see also United States v. Pena-Montes, 589 F.3d 1048, 1055 (10th Cir. 2009) (noting that
whether a stop occurs “in a high-crime area is a relevant consideration” for a
reasonable-suspicion analysis); Dennison, 410 F.3d at 1208 (acknowledging that a
defendant’s “presence in a high crime area . . . may be a ‘relevant contextual
consideration’” (quoting Wardlow, 528 U.S. at 124)). After all, “officers are not required
to ignore the relevant characteristics of a location in determining whether the
circumstances are sufficiently suspicious to warrant further investigation.” Wardlow, 528
U.S. at 124.
In reaching its reasonable-suspicion determination, the district court partially relied
on significant evidence of drug-related activity near the Wilhelmina Gill Center. Both

21
21a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 22

arresting officers testified about this activity. The female officer testified she knew about
“a lot of medical-type calls [for] individuals on PCP, along with complaints of narcotics
sales in the area.” R., Vol. I, at 126 (Trial Test. of Shenee Davis, dated Mar. 8, 2017).
The other (male) officer testified that he has responded to “a lot of narcotics complaints”
around the Wilhelmina Gill Center. Id. at 86 (Trial Test. of Carl Rowland, dated Mar. 8,
2017). He told the court that in the period leading up to the arrest of Mr. Gaines, “[w]e
had [ ] increased contact with individuals under the influence of PCP.” Id. He also
recalled that police sometimes received “multiple [calls] within a few minutes in that
general area [concerning] individuals exhibiting behavior that [suggested] they were
under the influence of PCP.” Id. at 86–87. Furthermore, other evidence presented at trial
confirmed that, in the two months prior to Mr. Gaines’s arrest, police had been called to
the area three times for drug overdoses.
In short, the area around the Wilhelmina Gill Center attracted drug-related activity.
Consequently, a reasonable officer in the shoes of the arresting officers here would have
almost certainly taken this fact into consideration in determining whether Mr. Gaines’s
conduct was sufficiently suspicious to justify an investigatory stop. And we conclude that
the district court properly determined that this evidence of drug-related activity provided
support for the reasonableness of the officers’ stop.
Of course, standing alone, this evidence of drug-related activity would not have
given the officers reasonable suspicion to conduct an investigatory stop of an individual

22
22a

Appellate Case: 19-3177

Document: 010110526895

Date Filed: 05/25/2021

Page: 23

in the vicinity of the Wilhelmina Gill Center. See, e.g., Dennison, 410 F.3d at 1208. But,
this evidence did not stand alone. In conjunction with the anonymous tipster’s call, the
area’s reputation for drug-related activity was a “relevant contextual consideration” that
helped create a reasonable suspicion to stop a particular individual—Mr. Gaines. Id.
IV
Based on “the totality of the circumstances and information available to the
officers,” Johnson, 364 F.3d at 1189 (quoting United States v. Lang, 81 F.3d 955, 965
(10th Cir. 1996)), we conclude there was reasonable suspicion justifying an investigatory
stop of Mr. Gaines. We therefore AFFIRM the judgment of the district court.
ENTERED FOR THE COURT
Jerome A. Holmes
Circuit Judge

23
23a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 1

PUBLISH

FILED
United States Court of Appeals
Tenth Circuit

UNITED STATES COURT OF APPEALS

March 12, 2019

FOR THE TENTH CIRCUIT
_________________________________

Elisabeth A. Shumaker
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

No. 17-3270

DESMOND S. GAINES,
Defendant - Appellant.
_________________________________
Appeal from the United States District Court
for the District of Kansas
(D.C. No. 2:15-CR-20078-JAR-1)
_________________________________
Paige A. Nichols, Assistant Federal Public Defender (Melody Brannon,
Federal Public Defender, with her on the briefs), Kansas Federal Public
Defender, Topeka, Kansas, for the Defendant-Appellant.
Stephen A. McAllister, United States Attorney (Carrie N. Capwell,
Assistant United States Attorney, with him on the brief), Office of the
United States Attorney, Kansas City, Kansas, for the Plaintiff-Appellee.
_________________________________
Before TYMKOVICH, Chief Judge, BACHARACH, and McHUGH,
Circuit Judges.
_________________________________
BACHARACH, Circuit Judge.
_________________________________
This appeal stems from a search, which took place after the police
spoke with the defendant, Mr. Desmond Gaines. After a brief exchange,
Appendix B
24a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 2

Mr. Gaines fled but was soon captured. The police then found cocaine,
marijuana, PCP, drug paraphernalia, over $640, and a handgun. Mr. Gaines
unsuccessfully moved to suppress this evidence. He now appeals, 1 and we
focus on two issues:
1.

The existence of a seizure. Two uniformed police officers
approached Mr. Gaines with flashing roof lights and confronted
him about a report that he was selling PCP. Did this
confrontation entail a seizure? The answer turns on whether a
reasonable person would have felt free to leave or terminate the
encounter. We answer “no” and characterize the encounter as a
seizure.

2.

The attenuation of a possible Fourth Amendment violation.
After effecting a seizure, the police allegedly acquired probable
cause and learned of an outstanding arrest warrant. Did the
development of probable cause or the subsequent discovery of
the arrest warrant attenuate the connection between the seizure
and the evidence? We answer “no,” so introduction of the
evidence can’t be supported by attenuation of a Fourth
Amendment violation.

Given our conclusions on these two issues, we vacate the denial of Mr.
Gaines’s motion to suppress.
I.

The Kansas City police approach Mr. Gaines in marked police
cars and question him about a report that he is selling PCP.
One morning, the police in Kansas City, Kansas, received a 911 call

reporting that a man dressed in red had just sold drugs in a parking lot.

After a trial, Mr. Gaines was convicted of (1) possessing cocaine
base, PCP, and marijuana with intent to distribute, (2) possessing a firearm
in furtherance of a drug-trafficking crime, and (3) possessing a firearm
after a felony conviction. But the appeal involves only the ruling on Mr.
Gaines’s motion to suppress.

1

2
25a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 3

Based on this information, police officers Carl Rowland and Shenee Davis
responded.
The police officers pulled into the parking lot in two separate police
cars and turned on their roof lights. 2 They parked behind a car in which a
man in red clothing (Mr. Gaines) was seated. Officer Rowland gestured for
Mr. Gaines to get out of the car. He did, and Officer Rowland confronted
Mr. Gaines with the report that he was selling drugs. The police officers
soon observed an open container of alcohol and smelled PCP. When they
said they were going to detain Mr. Gaines, he grabbed a pouch from his car
and fled. The police caught Mr. Gaines and discovered the evidence that
underlies this appeal.
II.

Was there a seizure?
The threshold issue is applicability of the Fourth Amendment. This

amendment applies if the police had seized Mr. Gaines; it doesn’t if the
encounter had been consensual. United States v. Reeves, 524 F.3d 1161,
1166 (10th Cir. 2008). The district court characterized the entire encounter
as consensual. To determine whether the encounter was consensual or
constituted a seizure, we apply a dual standard of review, using the clearerror standard for the district court’s findings of historical fact and de

In videos of the stop, it is hard to tell whether Officer Davis’s roof
lights were on. But Officer Davis testified in the suppression hearing that
she had activated her roof lights.

2

3
26a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 4

novo review for the court’s legal conclusions. United States v. Roberson,
864 F.3d 1118, 1121 (10th Cir. 2017). 3
The existence of a seizure involves a matter of law. See United States
v. Salazar, 609 F.3d 1059, 1064 (10th Cir. 2010) (stating that determining
“when the seizure occurred . . . is a legal [question]”). On this matter of
law, we consider whether Mr. Gaines yielded to a police officer’s show of
authority. California v. Hodari D., 499 U.S. 621, 626–27 (1991). To
answer this question of law, we apply an objective test, considering
whether a reasonable person would have felt free to leave or terminate the
encounter. Florida v. Bostick, 501 U.S. 429, 436 (1991). We apply this
objective test to the historical facts, which are largely undisputed. Even if
a reasonable person would not have felt free to leave, a seizure would

When considering whether the district court clearly erred, we have
often said that we view the evidence in the light most favorable to the
district court’s ruling or to the prevailing party. See United States v.
Salazar, 609 F.3d 1059, 1063 (10th Cir. 2010) (favorable to the prevailing
party); United States v. Valenzuela, 365 F.3d 892, 896 (10th Cir. 2004)
(favorable to the district court’s determination). Mr. Gaines challenges
these statements, urging us to jettison our existing approach. But one panel
of this court can’t overrule another panel. United States v. Doe, 865 F.3d
1295, 1298 (10th Cir. 2017). So we continue to view the evidence in the
light most favorable to the district court’s ruling or to the prevailing party.
E.g., United States v. Cone, 868 F.3d 1150, 1152 (10th Cir. 2017).
3

4
27a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 5

occur only if the suspect yielded to a police officer’s show of authority.
Hodari D., 499 U.S. at 626–27.
So let’s consider how a reasonable person would have felt, facing
the same circumstances that Mr. Gaines confronted. The encounter began
with Mr. Gaines sitting in his car in a parking lot. Two uniformed police
officers arrived in marked police cars, both flashing their roof lights.
Would a reasonable person have felt free to leave? Perhaps. But the
flashing roof lights, 4 two marked police cars, and two uniformed officers 5
would undoubtedly have cast at least some doubt on a reasonable person’s
belief in his or her freedom to leave.
This doubt would likely have intensified in Kansas (where Mr.
Gaines was stopped) because of Kansas’s traffic laws. See Berkemer v.
McCarty, 468 U.S. 420, 436–37 (1984) (considering the laws of most
states, which criminalize the failure to heed a police officer’s signal to

See 4 Wayne R. LaFave, Search & Seizure: A Treatise on the Fourth
Amendment § 9.4(a), at 598–99 (5th ed. 2012) (stating that the “use of
flashing lights as a show of authority . . . will likely convert the event into
a Fourth Amendment seizure”).
4

See United States v. Williams, 615 F.3d 657, 660 (6th Cir. 2010)
(“Williams was seized: a reasonable person would not have felt free to
leave upon being approached by two uniformed officers in a marked car,
singled out of a group, and immediately accused of a crime.”); see also
United States v. Lopez, 443 F.3d 1280, 1284 (10th Cir. 2006) (stating that
the presence of uniformed officers bears on whether a police encounter
constitutes a seizure).
5

5
28a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 6

stop, as informative on whether the defendant reasonably believed that he
wasn’t free to leave). Under Kansas law, motorists must stop whenever a
police officer flashes his or her emergency lights. Kan. Stat. Ann. § 81568(a)(1), (d).
The district court minimized the impact of the flashing roof lights,
crediting testimony by the police officers that they had activated their
lights only because their cars were blocking a lane of traffic. But the
officers’ subjective intent had little bearing on whether a reasonable
person would have thought that he or she could leave. See Brendlin v.
California, 551 U.S. 249, 260–61 (2007) (“The intent that counts under the
Fourth Amendment” is the intent conveyed to the suspect, and the court
does not consider the officers’ “subjective intent when determining who is
seized.”); see also United States v. Mendenhall, 446 U.S. 544, 554 n.6
(1980) (concluding that a law-enforcement agent’s “subjective intention
. . . to detain the respondent, had she attempted to leave, is irrelevant
except insofar as that may have been conveyed to the respondent”).
But let’s assume that a reasonable person would have felt free to
drive away at this point. 6 One of the police officers then exited his car and

If the police officers had followed and reactivated their roof lights,
Kansas law would have required the person to pull over. See Kan. Stat.
Ann. § 8-1568(a)(1), (d); State v. Morris, 72 P.3d 570, 577 (Kan. 2003).
6

6
29a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 7

gestured for Mr. Gaines to get out of the car. Here is what our reasonable
person would have seen:

At a minimum, the police officer’s gesture would have cast further doubt
on a reasonable person’s belief that he or she was free to drive away. See
Santos v. Frederick Cty. Bd. of Comm’rs, 725 F.3d 451, 462 (4th Cir.
2013) (holding that two deputy sheriffs’ gestures to stay seated constituted
a seizure).
But let’s assume that a reasonable person would still have felt free to
leave. As Mr. Gaines exited the car, one police officer stood just a few feet
away and said that they had come because of a report that Mr. Gaines was
“up here selling some dope.” The police officer then asked Mr. Gaines

7
30a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 8

whether he had been selling “wet” (street-language for PCP). Meanwhile,
another uniformed police officer circled the car, looking inside. 7

Would a reasonable person have felt free to leave? At a minimum, the
accusatory question would have added to the reasonable person’s doubt
about his or her freedom to return to the car and drive away. See United
States v. Glass, 128 F.3d 1398, 1407 (10th Cir. 1997) (stating that
“particularized focus” on an individual “is certainly a factor” to consider
when determining whether a seizure took place). 8

At a hearing, a prosecutor told the district court that the police
officers had “encircle[d] the location” because the situation was
“heightened.” R., vol. I at 372.
7

We have sometimes cautioned that the mere existence of
incriminating questions is not relevant to the existence of a seizure. See
United States v. Little, 18 F.3d 1499, 1506 (10th Cir. 1994) (en banc);
United States v. Ringold, 335 F.3d 1168, 1173 (10th Cir. 2003). We do not
question these cautionary statements. But here the police officer didn’t just
ask incriminating questions; he began by explaining that he had come (with
roof lights flashing) because of a report that this person was selling drugs
8

8
31a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 9

These were the five circumstances that confronted Mr. Gaines:
1.

He was sitting in his car when two marked police cars
approached and stopped right behind him with their roof lights
flashing.

2.

Both police officers were uniformed.

3.

One police officer gestured for Mr. Gaines to get out of his car.

4.

Mr. Gaines exited his car, and one of the police officers said
that they had come based on a report that he was selling PCP in
the parking lot.

5.

While one police officer told Mr. Gaines that someone had
accused him of selling PCP, the other police officer circled Mr.
Gaines’s car and looked inside.

in the parking lot. See United States v. Smith, 794 F.3d 681, 686 (7th Cir.
2015) (“The line between a consensual conversation and a seizure is
crossed when police convey to an individual that he or she is suspected of
a crime.”).
9
32a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 10

Viewing these circumstances as a whole, we conclude that (1) the police
officers showed their authority and (2) no reasonable person would have
felt free to leave.
Still, the encounter would constitute a seizure only if Mr. Gaines had
yielded to the show of authority. He ultimately fled, so the government
denies that Mr. Gaines yielded. We disagree. One officer gestured for Mr.
Gaines to get out of his car, and he did. When Mr. Gaines was asked
questions, he responded. See United States v. Camacho, 661 F.3d 718, 726
(1st Cir. 2011) (stating that a suspect “submitted” to a police officer’s
“show of authority by responding to his questions”). And when Mr. Gaines
was asked for his identification, he opened his car trunk to look for his
identification.
Mr. Gaines then fled. But by that point, he had already yielded to the
show of authority. We addressed a similar issue in United States v.
Morgan, 936 F.2d 1561 (10th Cir. 1991). There the defendant exited his
car and fled after asking the officer: “What do you want?” Morgan, 936
F.2d at 1566. We considered this single question enough to conclude that
the defendant had yielded to authority. Id. at 1567. By comparison, Mr.
Gaines had done more to yield: getting out of his car, answering the
officer’s questions, and looking for his identification.
We thus conclude that Mr. Gaines was seized.

10
33a

Appellate Case: 17-3270

III.

Document: 010110137480

Date Filed: 03/12/2019

Page: 11

Even if the seizure itself had been improper, would the
attenuation doctrine permit introduction of the subsequently
discovered evidence?
The government argues that even if the seizure had been improper, it

would have had only an attenuated connection to the later discovery of
evidence. This argument is based on the attenuation doctrine. Under this
doctrine, a constitutional violation leading to the discovery of evidence
does not require exclusion when only an attenuated connection exists
between the constitutional violation and discovery of the evidence. Utah v.
Strieff, 136 S. Ct. 2056, 2061 (2016).
To invoke the attenuation doctrine, the government bears a “heavy
burden.” United States v. Fox, 600 F.3d 1253, 1259 (10th Cir. 2010).
Trying to satisfy this burden, the government alleges two attenuating
circumstances:
1.

An outstanding arrest warrant existed for Mr. Gaines prior to
the encounter.

2.

The police officers obtained probable cause to search the car
based on the smell of PCP and observation of an open container
of alcohol.

The district court found attenuation based on the outstanding arrest
warrant. The court didn’t address probable cause, but the government
points to probable cause as an alternative basis to affirm the finding of
attenuation. In our view, attenuation cannot be based on either the arrest
warrant or the eventual development of probable cause.
11
34a

Appellate Case: 17-3270

A.

Document: 010110137480

Date Filed: 03/12/2019

Page: 12

Arrest Warrant

When the police officers searched the car, they did not know of any
outstanding arrest warrants. But shortly after conducting the search and
arresting Mr. Gaines, the police learned that he had an outstanding arrest
warrant. Based on the discovery of the warrant, the district court found
that the attenuation doctrine would allow introduction of the evidence even
if the initial encounter had constituted an unlawful seizure. We disagree
because (1) the execution of the arrest warrant might not have allowed a
search of the car and (2) two of the attenuation doctrine’s three factors
support exclusion.
We again apply a dual standard of review, using the clear-error
standard for findings of historical fact and de novo review for legal
conclusions. Ornelas v. United States, 517 U.S. 690, 699 (1996).
The arrest warrant might have led to an arrest, and arresting Mr.
Gaines would have allowed the police to conduct a search incident to an
arrest. Chimel v. California, 395 U.S. 752, 762–63 (1969). For a search
incident to an arrest, the police could search Mr. Gaines’s person and
places within his immediate control at the time of the search. See United
States v. Edward, 632 F.3d 633, 643 (10th Cir. 2001); see also United
States v. Knapp, No. 18-8031, slip op. at 12, ___ F.3d ___ (10th Cir. Mar. 5,
2019) (to be published) (“We therefore join the Third Circuit in
interpreting Gant as focusing attention on the arrestee’s ability to access
12
35a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 13

weapons or destroy evidence at the time of the search, rather than the time
of the arrest, regardless of whether the search involved a vehicle.”).
Here, the evidence at issue was in Mr. Gaines’s car. If the police had
arrested Mr. Gaines based on the arrest warrant, he might or might not
have been within reach of the car at the time of the search. If Mr. Gaines
was not within reach, the police could not have searched the car incident to
the arrest. See Arizona v. Gant, 556 U.S. 332, 343 (2009) (stating that the
police can “search a vehicle incident to a recent occupant’s arrest only
when the arrestee is unsecured and within reaching distance of the
passenger compartment at the time of the search”).
At oral argument, the government theorized for the first time that the
police could have impounded the car and conducted an inventory search.
Though the district court didn’t consider these theories, we can ordinarily
consider alternative arguments to affirm if the record is adequately
developed. United States v. Bagley, 877 F.3d 1151, 1154 (10th Cir. 2017).
Here, however, the government did not present this contention until oral
argument. We typically decline to consider an appellee’s contentions raised
for the first time in oral argument. See Adamscheck v. Am. Family Mut. Ins.
Co., 818 F.3d 576, 588 (10th Cir. 2016) (rejecting an appellee’s contention
to affirm on an alternative ground because the contention was raised for
the first time at oral argument).

13
36a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 14

Even if we were to consider the government’s new contention,
however, we would reject it. To conduct an inventory search, the
government had to prove that the police could lawfully impound Mr.
Gaines’s car. See United States v. Sanders, 796 F.3d 1241, 1244 (10th Cir.
2015) (“The government bears the burden of proving that its impoundment
of a vehicle satisfies the fourth Amendment.”). To satisfy this burden, the
government had to show that the police had standardized criteria justifying
impoundment and a legitimate community-caretaking reason to impound
the car. Id. at 1248.
Here the government presented no evidence of standardized criteria
for impoundment. Even with such evidence, however, the police could
impound the car only upon proof of a community-caretaking rationale. For
example, impoundment might have been permissible if the car had
obstructed traffic or imperiled public safety. South Dakota v. Opperman,
428 U.S. 364, 368–69 (1976). But we lack any evidence that the car was
illegally parked or imperiling public safety. 9
But let’s generously assume that the police could have searched the
car based on (1) discovery of the arrest warrant or (2) impoundment of the

After arresting Mr. Gaines, the police didn’t impound the car.
Instead, the police gave the keys to Mr. Gaines’s acquaintance, who
delivered the car to Mr. Gaines’s mother.

9

14
37a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 15

car. Even with this assumption, we could apply the attenuation doctrine
only after considering three factors:
1.

the “temporal proximity” between the Fourth Amendment
violation and discovery of the evidence

2.

the presence of “intervening circumstances”

3.

the “purpose and flagrancy” of the officer’s wrongdoing

Brown v. Illinois, 422 U.S. 590, 603–04 (1975). The first two factors favor
suppression of the evidence; only the third arguably favors the
government.
The first factor (temporal proximity) supports Mr. Gaines because
the evidence was discovered only minutes after the seizure. See Utah v.
Strieff, 136 S. Ct. 2056, 2062 (2016).
The third factor (the purpose and flagrancy of the police wrongdoing)
supports the government. The police officers arguably should have known
that the encounter constituted a seizure. But the district court found that
the police had been negligent (at worst). This finding was reasonable
because the issue of reasonable suspicion is close. (We discuss this issue
below.) So if the search had been unlawful, the police would have been (at
worst) negligent.
We also consider the second factor (the presence of intervening
circumstances between the allegedly unlawful stop and discovery of the
evidence). This factor supports Mr. Gaines because the arrest warrant
15
38a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 16

wasn’t discovered until after the search. See United States v. Gaines, 668
F.3d 170, 175 (4th Cir. 2012) (concluding that when evidence is discovered
prior to the defendant’s independent criminal act, this criminal act cannot
serve as “an intervening event” to purge the taint of an unlawful police
action); United States v. Beauchamp, 659 F.3d 560, 574 (6th Cir. 2011)
(concluding that no intervening circumstances existed because the new
ground for the search had arisen after discovery of the evidence); United
States v. Camacho, 661 F.3d 718, 730–31 (1st Cir. 2011) (same).
The government contends that if Mr. Gaines had not fled, the police


would have learned of the arrest warrant before searching the
car and



might have impounded the car.

For the sake of argument, we can assume that the government is right. But
the attenuation doctrine addresses events as they actually occurred, not as
they might have transpired. Thus, the arrest warrant and potential
impoundment do not attenuate the connection between a possible Fourth
Amendment violation and discovery of the evidence.
B.

Probable Cause

The government also insists that the development of probable cause
would have triggered the attenuation doctrine. We reject this argument.
According to the government, the police officers obtained probable
cause when they smelled PCP and observed an open container of alcohol in
16
39a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 17

Mr. Gaines’s car. But even if probable cause existed, it would have flowed
directly from the seizure. See Wong Sun v. United States, 371 U.S. 471,
487–88 (1963). So the discovery of evidence would still be traced directly
to the possible Fourth Amendment violation. See id. Given this direct
causal connection, the eventual development of probable cause would not
trigger the attenuation doctrine. 10
IV.

Was the police’s suspicion reasonable?
Even though Mr. Gaines was seized, the seizure would have been

permissible if the police had a reasonable ground to suspect Mr. Gaines of
a crime. See United States v. Cortez, 449 U.S. 411, 417–18 (1981). The
district court didn’t address the reasonableness of the police’s suspicion.
So our threshold decision is whether to decide this issue or remand for the
district court to address this issue in the first instance.
Mr. Gaines asks us to remand for the district court to decide the issue
in the first instance. We grant this request. The inquiry on reasonable
suspicion ordinarily entails a fact-intensive inquiry better suited to the

This argument might succeed in other cases when a suspect commits
a new crime during an unlawful seizure. For example, if a suspect resists
arrest during the seizure, the new crime of resisting arrest might arguably
attenuate the link between the seizure and a subsequent search. See United
States v. Bailey, 691 F.2d 1009, 1018 (11th Cir. 1982) (attenuation when
the defendant resisted arrest during an unlawful stop because resisting
arrest constituted a “new, distinct crime”). We need not address this issue
because the government doesn’t allege the commission of a new, distinct
crime after the search.

10

17
40a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 18

district court than to our court. See United States v. Esquivel-Rios, 725
F.3d 1231, 1238 (10th Cir. 2013) (Gorsuch, J.) (discussing the benefit of
remanding so that the district court could decide reasonable suspicion in
the first instance); United States v. Hauk, 412 F.3d 1179, 1186 (10th Cir.
2005) (referring to reasonable suspicion as a “fact-intensive” issue). And
here, the parties disagree on some potentially material aspects of the
inquiry, such as


whether the 911 caller implied that he or she had observed a
drug sale and



whether either police officer had known of past drug sales in
the area where Mr. Gaines was located.

The issue is also close. The police learned of Mr. Gaines through an
anonymous tip, and the Supreme Court concluded in Florida v. J.L., 529
U.S. 266 (2000) that an anonymous tip hadn’t supplied reasonable
suspicion. J.L., 529 U.S. at 271. But the Supreme Court also reached the
opposite conclusion in Navarette v. California, 572 U.S. 393 (2000). There
the Court relied partly on the use of the 911 system, the contemporaneous
nature of the call with the reported crime, and the specificity of the
information. Navarette, 572 U.S. at 398–403. These factors arguably apply
here. But in J.L., the Court also suggested the importance of predictive
information and corroboration, and both are arguably missing here. J.L.,
529 U.S. at 270–71.

18
41a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 19

Given the closeness of the issue and the district court’s superior
resources for fact-finding, we grant Mr. Gaines’s request to remand for the
district court to decide whether the police had reasonable suspicion.
V.

Did Mr. Gaines abandon the black pouch?
When Mr. Gaines fled, he threw a black pouch onto the roof of a

building. The police later found the pouch, and it contained illegal drugs,
cash, and drug paraphernalia. All of this evidence was introduced at the
trial. Mr. Gaines alleges that the evidence should have been excluded, and
the government contends that Mr. Gaines abandoned the pouch.
The district court didn’t address the issue, and the record on
abandonment is inadequately developed. We therefore can’t consider
abandonment as an alternative ground for affirmance. See p. 13, above. 11
VI.

Conclusion
The police effected a seizure when two uniformed police officers

pulled behind Mr. Gaines in marked police cars, using their roof lights and

Mr. Gaines argues that the government waived its abandonment
argument by failing to raise it in district court. For this argument, Mr.
Gaines relies on United States v. Hernandez, 847 F.3d 1257, 1262 (10th
Cir. 2017), and United States v. Verner, 659 F. App’x 461, 466–68 (10th
Cir. 2016) (unpublished). In these cases, however, the government was the
appellant. Hernandez, 847 F.3d at 1260; Verner, 659 F. App’x at 462. And
we ordinarily allow the government to present new arguments for
affirmance when the district court record is adequately developed. See
p. 13, above (citing United States v. Bagley, 877 F.3d 1151, 1154 (10th
Cir. 2017)).
11

19
42a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 20

pointedly telling Mr. Gaines that they had come because of a report that he
was selling drugs in the parking lot. After conducting the search, the police
learned of an outstanding warrant and arguably obtained probable cause
during their discussion with Mr. Gaines. But neither the arrest warrant nor
the later existence of probable cause attenuate the causal connection
between the seizure and discovery of the evidence. We thus vacate the
denial of Mr. Gaines’s motion to suppress.
An issue remains on the existence of reasonable suspicion. This issue
is better suited for the district court to decide in the first instance. We thus
remand for consideration of the issue involving reasonable suspicion. 12

On remand, the district court is also free to consider the
government’s argument involving abandonment of the black pouch. The
issue of abandonment is fact-intensive and better suited for the district
court to decide on a fuller record. See, e.g., United States v. Driskill, No.
98-6331, 1999 WL 730954, at *2 (10th Cir. Sept. 20, 1999) (unpublished)
(“Whether a defendant ‘abandoned’ property in the Fourth Amendment
sense is a fact-intensive determination which would ordinarily require an
adequately developed record.”).

12

20
43a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 21

17-3270, United States v. Gaines
TYMKOVICH, CJ., dissenting.
I would affirm the district court because Officers Rowland and Davis had
reasonable suspicion to perform a brief investigative stop. And Officer Rowland quickly
gained probable cause to arrest Gaines based on the open container plainly visible inside
Gaines’s vehicle. Although the majority thoroughly and persuasively analyzes the
existence of a seizure and the applicability of the attenuation doctrine, I would not reach
these two issues. I therefore dissent.
I see no need to remand for the district court to determine reasonable suspicion,
despite the district court not reaching the issue below. The government squarely
presented the issue to the district court and developed a detailed record regarding the
officers’ knowledge and observations. And based on this record, the officers had
reasonable suspicion to detain Gaines briefly while they investigated possible criminal
activity.
We may affirm on an alternative ground when the facts in the record are
sufficiently developed and clear. See United States v. Springer, 875 F.3d 968, 981 (10th
Cir. 2017) (“[W]e are free to affirm a district court decision on any grounds for which
there is a record sufficient to permit conclusions of law, even grounds not relied upon by
the district court.” (internal quotation marks omitted)). And we should do so when, as
here, an issue will almost certainly return on appeal. I would therefore exercise our

44a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 22

discretion to affirm on this alternative ground, which is more than “adequately supported
by the record.” Davis v. Roberts, 425 F.3d 830, 834 (10th Cir. 2005).
The Fourth Amendment permits brief investigative stops when law enforcement
officers have “a particularized and objective basis for suspecting the particular person
stopped of criminal activity.” United States v. Cortez, 449 U.S. 411, 417–18 (1981).
Whether officers have reasonable suspicion depends “upon both the content of
information possessed by police and its degree of reliability.” Alabama v. White, 496
U.S. 325, 330 (1990). The standard takes into account “the totality of the circumstances,”
Cortez, 449 U.S. at 417—all the information officers possessed. Although a mere hunch
does not create reasonable suspicion, the level of suspicion required is “considerably less
than proof of wrongdoing by a preponderance of the evidence.” United States v.
Sokolow, 490 U.S. 1, 7 (1989).
In this case, the officers responded to a 911 call that exhibited adequate indicia of
reliability. Combined with their knowledge of PCP-related drug activity at the address
and in the immediate area, a brief investigative stop was fully justified.
The Supreme Court has noted that “[a]n anonymous tip alone seldom demonstrates
the informant’s basis of knowledge or veracity,” Navarette v. California, 572 U.S. 393,
397 (2014), so an anonymous tip is consequently seldom enough for reasonable suspicion.
But the Court has held, “under appropriate circumstances, an anonymous tip can
demonstrate sufficient indicia of reliability to provide reasonable suspicion to make [an]

2
45a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 23

investigative stop.” Id. (internal quotation marks omitted). Thus, the Court has held that
an anonymous tip can suffice for reasonable suspicion, given some indicia of reliability,
though generally some additional information is needed. In this case we have both.
The Supreme Court has plainly held that not all anonymous tips give police
reasonable suspicion to make an investigative stop. In Florida v. J.L., 529 U.S. 266
(2000), police received an anonymous phone call alleging that “a young black male
standing at a particular bus stop and wearing a plaid shirt was carrying a gun,” id. at 268.
The call itself did not exhibit any signs of being reliable—there was “no audio recording
of the tip, and nothing [was] known about the informant”—so “[a]part from the tip, the
officers had no reason to suspect” the young man of any illegal conduct. Id. Under these
circumstances, the Court unanimously held that the officers lacked reasonable suspicion
to frisk the defendant for weapons.
More recently, however, the Supreme Court has under different circumstances
found an anonymous tip sufficient under the Fourth Amendment. See Navarette, 572
U.S. at 393. The police in Navarette received a 911 emergency call stating that a vehicle
had just run the caller off the road. The caller provided the dispatcher with the license
plate number, which police used to locate and stop the vehicle. The Court found three
factors especially relevant: the tipster (1) “claimed eyewitness knowledge of the alleged
dangerous driving,” (2) “reported the incident soon after she was run off the road,” and

3
46a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 24

(3) “use[d] the 911 emergency system.” Id. at 399–400; see also United States v. Chavez,
660 F.3d 1215, 1222 (10th Cir. 2011) (laying out similar considerations).
Here, the informant appears to have personally observed Gaines conducting a drug
transaction, but we cannot assume that fact when the record is inconclusive. The majority
is correct that this is a disputed fact because the caller never explicitly says how he knows
of the illegal conduct. The caller was certainly personally observing Gaines while on the
phone with the 911 operator and noted that Gaines “just made about 20 dollars.” Gov’t
Ex. 1 at 0:46–48. And he knew how Gaines was dressed and where he had parked his
car. But we ultimately cannot be sure the tipster was in a similar position to the caller in
Navarette.
We have no need to rely on this disputed fact, however, because the claim of
eyewitness knowledge is only one indicium of reliability. It cannot be dispositive in
either direction because officers have even less ability to confirm a tipster’s claim of
personal knowledge than other aspects of an anonymous call. And the other two relevant
considerations are present. The caller made a “contemporaneous report” of his
observations of Gaines’s activities, criminal or not, and the caller used the 911 system.
Navarette, 572 U.S. at 399–400. The anonymous call also contained several other indicia
of reliability.
The anonymous tipster described his observations to the emergency operator as he
saw them, stating clearly, “I’m watching him right now.” Gov’t Ex. 1 at 1:39–41. This

4
47a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 25

information is the “sort of contemporaneous report [that] has long been treated as
especially reliable.” Navarette, 572 U.S. at 399. This is because “substantially
contemporaneity of event and statement negate the likelihood of deliberate or conscious
misrepresentation.” Id. at 400 (citing Advisory Committee’s Notes on rule of evidence
803(1), which describes “the rationale for the hearsay exception for ‘present sense
impression[s]’”). Granted, the caller here does not describe any criminal activity
contemporaneously with his observations. This weakens the reliability of the criminal
allegations. But the contemporaneousness of the caller’s noncriminal information
increases the overall reliability of the tip because the tipster reported mostly present sense
impressions, which “weigh[s] in favor of the caller’s veracity.” See id. (emphasis added).
And an anonymous caller’s veracity is at least part of the overall reliability inquiry.
Also significant is the caller’s use of the 911 emergency system. As the Supreme
Court reasoned in Navarette, “A 911 call has some features that allow for identifying and
tracing callers, and thus provide some safeguards against making false reports with
immunity.” Id. For instance, a recorded call “provides victims with an opportunity to
identify the false tipster’s voice and subject him to prosecution,” and FCC regulations
prohibit carriers from allowing callers to “block call recipients from obtaining their
identifying information.” Id. at 400–01. This does not “suggest that tips in 911 calls are
per se reliable,” but it does mean that a tipster’s use of the 911 system is “one of the

5
48a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 26

relevant circumstances that, taken together, justified the officer’s reliance on the
information reported in the 911 call.”1 Id. at 401.
In this case, moreover, we have several other indicia of reliability. First, the caller
told the 911 operator where he was. His first words were, “Uh yes, I’m down here at uh
Frank Gill Center . . . Frank Williams Center.” Gov’t Ex. 1 at 0:02–07. He later
confirmed this location by exiting the building briefly to verify and report the exact
address where he was located. See United States v. Madrid, 713 F.3d 1251, 1260 (10th
Cir. 2013) (“giving the address” where the crime took place and the caller’s own location
“was at least an indicium of reliability”) (internal quotation marks omitted). This,
combined with the use of the 911 emergency system, jeopardized his anonymity, which
created a “disincentive for making false allegations.” United States v. Jenkins, 313 F.3d
549, 554 (10th Cir. 2002); see also United States v. Copening, 506 F.3d 1241, 1247 (10th
Cir. 2007) (“The fact the caller provided authorities some basis for discovering his
identity makes it less likely his tip was phony.”).
Second, the caller spent over two minutes on the phone with the 911 operator and
answered every question put to him. When the operator asked what type of car Gaines
was driving, the caller answered honestly that he did not know but continued, “I can tell

Gaines’s counsel at oral argument contended that a 911 call does not make a tip
more reliable because tipsters may use burner phones or other methods to hide detection.
But this was no more true in 2015 when this incident occurred than in 2014 when the
Supreme Court decided Navarette.
1

6
49a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 27

ya if you wait.” Gov’t Ex. 1 at 1:36–37. He also took the time to verify the address of the
building where the police needed to go.
Third, the caller did not decline to give his name; the 911 operator simply never
asked. This is certainly an indicium of reliability. See Madrid, 713 F.3d at 1260 (finding
significant that “the 911 operator never asked the caller for his name or other identifying
information and there [was] no reason to believe he would not have provided this
information if requested”); United States v. Torres, 534 F.3d 207, 212 (3d Cir. 2008)
(same). Again, these considerations do not make tips reliable per se. But a reasonable
officer could find an anonymous tip fairly credible when the caller reveals where he is
located, jeopardizing his anonymity; does not decline to give any information, especially
identifying information; and does not seem in any hurry to make an allegation and hang
up.
The officers also had information beyond the anonymous (yet sufficiently reliable)
tip on which to rely. They had first-hand officer observation and knowledge. The
officers knew which person in the parking lot had been accused of drug dealing: another
officer, Officer Wilcox, who at the time was off-duty at the Center, radioed in that the
man getting into the Cadillac was the person who had been standing on the street corner
dressed in all red when the tipster called. Thus, the officers could be confident that
Gaines was the person the caller had accused of criminal activity. See Cortez, 449 U.S. at

7
50a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 28

417–18 (officers must have “a particularized and objective basis for suspecting the
particular person stopped of criminal activity” (emphasis added)).
In addition, the officers had personal knowledge of drug, and specifically PCPrelated, activity in the immediate area of the Wilhelmina Gill Center. See United States v.
DeJear, 552 F.3d 1196, 1201 (10th Cir. 2009) (“[T]he fact that conduct occurs in an area
known for criminal activity [is an] appropriate factor[] to consider in determining whether
reasonable suspicion exists.”). Officer Rowland testified at length at the suppression
hearing regarding his knowledge of drug activity near the Center. Officer Davis also
testified that she was aware of “a lot of medical-type calls of individuals on PCP, along
with complaints of narcotics sales in the area.” R., Vol. I at 192.
Gaines now claims that the two officers’ knowledge of drug activity at the Center
and the immediate area is a disputed issue of fact that must be resolved by the district
court. But the officers’ testimony that each was aware of this drug activity is
unequivocal—and unrefuted.
Officer Rowland laid foundation for a government exhibit that revealed eight
police reports to the exact address for drug-related medical treatment that calendar year.
The police reports confirm officers had been called to the address for drug overdoses
three times in the two months prior to Gaines’s arrest. Two of those reports specifically
mention that the person receiving treatment had taken or had likely taken PCP, the
specific drug the anonymous tipster identified.

8
51a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 29

Officer Rowland also testified extensively about his personal knowledge of these
events. He told the court he had personally “responded to calls for service” in the
immediate area of the Wilhelmina Gill Center for various things but certainly for “a lot of
narcotics complaints.” R., Vol. I at 151–52, 154. The officer testified that leading up to
the day of the arrest “[w]e had an increased contact with individuals under the influence
of PCP.” Id. at 152. He continued, police received “[n]umerous medical calls,
sometimes multiple within a few minutes in that general area of individuals exhibiting
behavior that they were under the influence of PCP . . . . So we would usually respond,
whether it be a police call or a medical call.” Id.
We may rely on this record evidence based on the district court’s findings of fact
and the record evidence. The district court specifically found that Officer Rowland “was
familiar with the Wilhelmina Gill Center and the surrounding area” and “had responded
to several drug-related calls” at the Center. R., Vol. I at 136. The court also found that
“officers had been dispatched to the Wilhelmina Gill Center eight times . . . for medical
calls involving reactions to PCP or other substances.” Id. It is true that the district court
did not specifically find that the officers were aware of the PCP-related medical calls
established in the police records. But Gaines did not challenge the officers’ assertion of
this personal knowledge at the suppression hearing; he produced no evidence to
contradict the officers’ testimony and barely questioned them on the issue during crossexamination. Id. at 178–80, 195. The cross-examinations on this point were only to

9
52a

Appellate Case: 17-3270

Document: 010110137480

Date Filed: 03/12/2019

Page: 30

clarify that not all the drug-activity of which the officers knew was specifically PCP
related.
The suppression hearing record therefore shows that (1) Officers Rowland and
Davis personally responded to service calls in the area of the Center, especially for
narcotics complaints; and (2) at least Officer Rowland was aware of the eight police
reports he sponsored into evidence of drug related activity at the same address as the
arrest happened, including the two service calls for PCP-related drug activity at the
Center within two months of Gaines’s arrest. This is sufficient evidence to conclude that
the officers had additional knowledge, beyond the anonymous phone call, to raise
reasonable suspicion that Gaines was selling PCP in the parking lot of the Wilhelmina
Gill Center.
Thus, the officers reasonably relied on the anonymous tip in conjunction with their
own knowledge because together “the informant’s story and the surrounding facts
possessed an internal coherence that gave weight to the whole.” United States v. Brown,
496 F.3d 1070, 1078–79 (10th Cir. 2007). So even “[e]xercising the significant
skepticism and careful scrutiny required in the anonymous-informant context,” Copening,
506 F.3d at 1247 (internal quotation marks omitted), I would affirm on grounds of
reasonable suspicion.

10
53a

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 1 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 229

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
UNITED STATES OF AMERICA,
Plaintiff,
v.

Case No. 15-CR-20078-JAR

DESMOND S. GAINES,
Defendant.
MEMORANDUM AND ORDER
This matter is before the Court on Defendant Desmond Gaines’ Motion to Suppress
Evidence (Doc. 46). Defendant contends that evidence seized by law enforcement from an
encounter on August 24, 2015 was seized in violation of his Fourth Amendment rights. This
Court previously denied Defendant’s motion on the grounds that Defendant’s encounter with law
enforcement was consensual.1 The Tenth Circuit reversed, finding that Defendant was seized,
and remanded to this Court to decide whether this seizure was based on reasonable suspicion.2
The Government has filed a Memorandum of Law,3 and Defendant has responded.4 For the
reasons discussed below, the Court finds that the officers had reasonable suspicion to seize
Defendant, and Defendant’s Motion to Suppress (Doc. 46) is denied.
I.

Factual Background
These findings are based on the testimony and evidence admitted at the hearing before

this Court on March 8, 2017 and the subsequent findings of the Tenth Circuit Court of Appeals

1

Doc. 53.

2

Doc. 155.

3

Doc. 159.

4

Doc. 160.

Appendix C
54a

ROA Vol pg.229

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 2 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 230

in United States v. Gaines.5
On August 24, 2015, Officer Carl Rowland and Officer Shenee Davis, who were both
patrol officers with the Kansas City, Kansas Police Department, were dispatched to the
Wilhelmina Gill Center, at 645 Nebraska Ave. Kansas City, Kansas, following an anonymous
911 call.6 The unidentified caller stated there was a “light-skinned” man in all red clothing
“selling wet,” which is otherwise known as phencyclidine (“PCP”), and that “[the man] just
made about twenty dollars.” The caller stated that the man was in the parking lot of the
Wilhelmina Gill Center sitting in a white car, but he did not know the type of car that the man
was driving. The caller stated that the caller was located at the Wilhelmina Gill Center when he
observed the man.
At the hearing, Officer Rowland testified that he was familiar with the Wilhelmina Gill
Center and the surrounding area. Officer Rowland testified that he had personally responded to
several drug-related calls at the Wilhelmina Gill Center, and leading up to the arrest on August
24, “we had an increased contact with individuals under the influence of PCP” around the
Wilhelmina Gill Center.7 In fact, police dispatch records showed that between March and
August 2015, officers had been dispatched to the Wilhelmina Gill Center eight times for
individuals exhibiting reactions to PCP or other substances.8 Officer Davis similarly testified
that, “we had a lot of medical-type calls of individuals on PCP, along with complaints of
narcotics sales in the area.”9

5

918 F.3d 793 (10th Cir. 2019).

6

Gov’t Ex. 1.

7

Doc. 57 at 6:23–25.

Gov’t Ex. 7. On July 24, 2015, police records show that officers were dispatched to the Wilhelmina Gill
Center for a female suspected of reacting to ingestion of PCP. See id.
8

9

Doc. 57 at 46:15–22.

2 55a

ROA Vol pg.230

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 3 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 231

Officer Mark Wilcox, a patrol officer for the Kansas City, Kansas Police Department,
was working on August 24, 2015 as an off-duty security guard at the Frank Williams Outreach
Center, which is directly across the street from the Wilhelmina Gill Center. Officer Wilcox
testified that he wears his police uniform at the Frank Williams Outreach Center, including his
police radio. Prior to the call being dispatched, Officer Wilcox was patrolling the parking lot of
the Frank Williams Outreach Center. He noticed a man in all red clothing wiping down a white
Cadillac in the Wilhelmina Gill Center parking lot. Not long after this observation, Officer
Wilcox heard the dispatched call that a man wearing all red was selling drugs. As Officer
Rowland and Officer Davis arrived on scene, Officer Wilcox radioed about his observation of
the man wearing all red entering the white Cadillac. Officer Wilcox, however, never observed
this man conducting a drug transaction.
Officer Rowland, who was uniformed and driving a marked police cruiser, pulled into the
Wilhelmina Gill Center parking lot from the west. 10 Officer Davis, who was also uniformed,
followed directly behind him in the marked police cruiser that she was driving. Officer Rowland
also observed the man (subsequently identified as Desmond Gaines, the “Defendant”) entering
the white Cadillac and observed that Defendant matched the description of light skinned and
wearing all red (red hat, red shirt, red pants, and red shoes). Officer Rowland pulled up behind
the driver’s side of the white Cadillac, and Officer Davis pulled up alongside Officer Rowland’s
cruiser, also to the rear of the white Cadillac. Both officers activated the emergency lights on
their cruisers.

10
There is both audio and video of the encounter captured on Officer Rowland’s police cruiser camera
system. Gov’t Ex. 3. There is also video from the Wilhelmina Gill Center cameras in the parking lot. Gov’t Ex. 2.

3 56a

ROA Vol pg.231

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 4 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 232

Officer Rowland approached the driver’s side of the white Cadillac and gestured for
Defendant to exit the vehicle. A close review of the video reveals that Defendant, who was
sitting in the driver’s seat with the door closed, began to exit the white Cadillac prior to Officer
Rowland’s gesture. Regardless, Defendant exited the car and quickly closed the door behind
him. Meanwhile, Officer Davis exited her cruiser and approached the rear of the white Cadillac.
Officer Rowland began to speak to Defendant, who asked Officer Rowland what he was doing;
Officer Rowland replied that there was a 911 call about a man matching his description selling
drugs. Defendant denied that he was engaged in drug sales.
Officer Rowland asked Defendant for identification; Defendant responded that his
identification was in the car trunk. At this point, Defendant reopened the driver’s side door and
pulled the trunk release. As Defendant began to walk toward the trunk, he began to close the
driver’s side door behind him, but Defendant then caught the door with his hand and the door
remained open. Defendant positioned himself between the car and the open driver’s side door.
Meanwhile, Officer Davis began to walk toward the rear part of the car, and then to the
passenger side.
Officer Rowland testified that as soon as Defendant reopened the driver’s side door,
Rowland smelled a strong chemical odor that based on his training and experience he believed
was the odor of PCP. Officer Rowland further testified that once the trunk was ajar, the odor of
PCP became stronger. From his position next to the driver’s side door, Officer Rowland also
observed a bottle of alcohol on the center console underneath a walkie talkie radio. Officer
Rowland told Defendant that he was going to detain him for having an open container of alcohol
within his reach in the car.11 Photographs taken at the time of the stop depict a bottle of alcohol

11

Possession of alcohol in a vehicle is a violation of K.S.A. § 8-1599, which is an arrestable offense.

4 57a

ROA Vol pg.232

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 5 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 233

on the center console with the lid intact on the bottle. Officer Rowland testified that although he
also decided to detain Defendant in part because of the strong odor of PCP, he did not tell
Defendant this at that time, because he did not want to tip Defendant off that he suspected PCP
was present.
Once Officer Rowland displayed his handcuffs, he observed Defendant becoming
agitated and fidgety. Officer Rowland reached for Defendant’s left hand to place him in
handcuffs. Defendant pulled away from Officer Rowland and reached into the car through the
open driver’s side door. Defendant removed the keys from the ignition, grabbed a black
zippered pouch from the driver’s side floorboard area, turned and shoved Officer Rowland, and
fled on foot. Officers Rowland and Davis chased Defendant on foot.
Defendant fled towards the intersection of Sixth Street and State Street, then ran down an
alley between a parking lot and building south of the Wilhelmina Gill Center. When his path of
flight was obstructed by a fence, Defendant stopped running and threw the black zippered pouch
onto the roof of the building located at 612 State Avenue. Officer Rowland observed Defendant
throw the zippered pouch on to the building. Officer Rowland testified that Defendant then
turned around in an aggressive stance. Officer Rowland drew his firearm because he was unsure
if Defendant was armed. Officer Davis was behind Officer Rowland providing cover. After
Officer Rowland commanded Defendant to get on the ground, Defendant complied, but as
Officer Rowland holstered his firearm and attempted to handcuff him, Defendant resisted.
Officer Davis then deployed her taser for three cycles at which point Defendant was placed in
handcuffs.
Meanwhile, while Officer Rowland and Officer Davis chased Defendant on foot, Officer
Wilcox, who had watched the encounter, walked from the Frank Williams Outreach Center to

5 58a

ROA Vol pg.233

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 6 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 234

Defendant’s unattended car in the Wilhelmina Gill Center parking lot. The driver’s side door
and the trunk were both still open when Officer Wilcox approached. As he stood outside the car,
Officer Wilcox could see inside the car through the open driver’s side door. Officer Wilcox
observed a handgun on the floorboard of the car, a fact that Officer Wilcox relayed to other
officers via radio.
Meanwhile, Officer Rowland obtained a ladder and climbed on top of the building at 612
State Ave. There he recovered the black zipper pouch and its contents: a clear container of PCP,
fourteen bags of marijuana, sixty-five bags of crack cocaine, one package of More brand
cigarettes,12 and $641.51 in currency. Inside the car, police recovered a large amount of crack
cocaine and some powder cocaine from the center console. Police also recovered the firearm
visible on the floorboard of the driver’s seat, as well as three walkie talkie radios, and a cellular
telephone.
II.

Standard
The Supreme Court has defined “reasonable suspicion” as a “particularized and objective

basis” for believing the person being stopped is committing or did commit a violation.13 “The
Fourth Amendment permits brief investigative stops when law enforcement officers have ‘a
particularized and objective basis for suspecting the particular person stopped of criminal
activity.’”14 Whether officers have reasonable suspicion depends “upon both the content of
information possessed by police and its degree of reliability.”15

12
Officer Rowland testified that based on his knowledge and experience as a patrol officer, More brand
cigarettes are the cigarette of choice for dipping PCP and smoking it through the cigarette.
13

United States v. Cortez, 449 U.S. 411, 417–18 (1981).

14

Id.

15

Alabama v. White, 496 U.S. 325, 330 (1990).

6

59a

ROA Vol pg.234

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 7 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 235

Reasonable suspicion is a less demanding standard than probable cause.16 Further, in
making reasonable-suspicion determinations, courts must look at the “totality of the
circumstances” of each case to decide whether the detaining officer has a “particularized and
objective basis” for suspecting legal wrongdoing.17
III.

Discussion
The Court begins its analysis with the Tenth Circuit’s conclusion that Defendant was

seized when officers approached his car while flashing their emergency lights and told
Defendant that they had come because of a report he was selling drugs.18 Based on this timeline,
the Court must consider whether the officers had reasonable suspicion to approach Defendant in
the first place.
The majority opinion noted that this issue is “close.”19 In doing so, the Court pointed to
two potentially material factual disputes: (1) whether the 911 caller implied that he had observed
a drug sale; and (2) whether either police officer had known of past drug sales in the area where
Defendant was located.20 Answering both questions in the affirmative and considering Supreme
Court precedent with regard to anonymous tips, the Court concludes that the officers had
reasonable suspicion to seize Defendant.
A.

911 Call

The Supreme Court has noted that “an anonymous tip alone seldom demonstrates the
informant’s basis of knowledge or veracity.”21 Nevertheless, the Court has found that “under

16

Id.

17

United States v. Arvizu, 534 U.S. 266, 273 (2002).

18

United States v. Gaines, 918 F.3d 793, 803 (10th Cir. 2019).

19

Id. at 801.

20

Id. at 802.

21

Navarette v. California, 572 U.S. 393, 397 (2014) (emphasis in original).

7 60a

ROA Vol pg.235

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 8 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 236

appropriate circumstances, an anonymous tip can demonstrate ‘sufficient indicia of reliability to
provide reasonable suspicion to make [an] investigatory stop,’”22 Certainly, not all anonymous
tips contain sufficiently indicia of reliability.23 In J.L., police received an anonymous phone call
from “an unknown location by an unknown caller” alerting the police that a “young black male
standing at a particular bus stop and wearing a plaid shirt was carrying a gun.”24 The Court
noted that there was no audio recording, nothing was known about the informant, and that the
call lacked “indicia of reliability” because the call provided no predictive information for the
police to test the informant’s knowledge or credibility.25 The Court held that under these
circumstances the officers lacked reasonable suspicion to frisk the defendant for weapons.26
Conversely, in Navarette v. California, the Supreme Court found that an anonymous 911
call was sufficiently reliability to provide reasonable suspicion for a traffic stop. In Navarrete,
the Supreme Court considered three primary factors in assessing the reliability of an anonymous
tip: the caller (1) “claimed eyewitness knowledge of the alleged dangerous driving,” (2)
“reported the incident soon after she was run off the road,” and (3) “use[d] the 911 emergency
system.”27 The Court considers these factors in turn.
With regard to the first factor, here, the caller implies that he personally observed
Defendant’s drug sale. He stated that Defendant was selling wet (PCP) and further that
Defendant “just made about twenty dollars.” He also provided detailed information about how

22

Id. (citing Alabama v. White, 496 U.S. 325, 327 (1990)).

23

See Florida v. J.L., 529 U.S. 266 (2000).

24

Id. at 268, 270.

25

Id.

26

Id. at 270.

27

Navarette v. California, 572 U.S. 393, 399–400 (2014).

8

61a

ROA Vol pg.236

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 9 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 237

Defendant was dressed and where he had parked his car.28 Nonetheless, the other two factors are
also clearly met here.
The caller made a contemporaneous report of his observations of Defendant’s activities,
criminal or not.29 He states that “[Defendant] just made about twenty dollars” and told the 911
operator, “I’m watching him right now . . . he’s still walking up the hill.”30 “Substantial
contemporaneity of event and statement negate the likelihood of deliberate or conscious
misrepresentation.”31 While Defendant asserts that the lack of criminal activity being described
contemporaneously negates this factor, the Court finds that the overall reliability of the tip is
increased by the caller’s report of present sense impressions, which “weigh[s] in favor of the
caller’s veracity.”32 This factor distinguishes the present case from J.L., where the caller did not
imply that he had personally witnessed any activity, criminal or not, contemporaneously.
Further, the caller reported the tip through the 911 system. In Navarette, the Supreme
Court noted that “[a] 911 call has some features that allow for identifying and tracing callers, and
thus provide some safeguards against making false reports with immunity,” including providing
victims of false tips “with an opportunity to identify the false tipster’s voice.”33 Defendant
argues that this factor is irrelevant because the Government has offered no evidence that the call
was traced or traceable. The call was, however, clearly recorded. If the tip had been false,

See United States v. Williams, 646 F. App’x 624, 627 (10th Cir. 2016) (finding one factor to consider in
assessing the reliability of a 911 call is “whether the informant provided detailed information about the events
observed”).
28

See id. (finding one factor to consider in assessing the reliability of a 911 call is “whether the informant
reported contemporaneous, firsthand knowledge”).
29

30

Gov’t Ex. 1.

Navarette, 572 U.S. at 400 (citing Advisory Committee’s Notes on Fed. R. Evid. 803(1), which describes
“the rationale for the hearsay exception for ‘present sense impression[s]’”).
31

32

Id. (emphasis added).

33

Id.

9 62a

ROA Vol pg.237

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 10 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 238

Defendant would have had the opportunity to identify the caller’s voice. In this regard, the caller
“lacked true anonymity.”34
Additionally, the caller told the operator where he was, he stayed on the phone for over
two minutes, and he answered every question that was put to him, including answering the
operator honestly that he did not know what type of car Defendant was driving. The Tenth
Circuit has noted that “giving the address” is “at least an ‘indicium of reliability.’”35 Moreover,
the caller was not intentionally anonymous; the operator simply never asked his name, and there
is no reason to believe that he would not have provided it.36 Similarly, to the extent Defendant
argues that the fact the caller did not relay any motive for the call hurts its reliability, the Court
finds no basis to infer any animosity or ulterior motive here.37 While the presence of these
factors may serve as another basis to find the tip reliable, their absence is not dispositive.
Finally, the fact that the call was over two minutes long demonstrates that the caller was
not in any hurry to make an allegation and then quickly hang up. While Defendant contends that
the length of the call “adds nothing to the reliability calculus,”38 the Court finds the length
contributes to the credibility of the tip. While no one factor makes the tip reliable, the Court
finds that the aggregate effect of the above factors makes this anonymous tip sufficiently reliable
to provide reasonable suspicion.

34

See Williams, 646 F. App'x at 627.

35

United States v. Madrid, 713 F.3d 1251, 1260 (10th Cir. 2013).

See id. (“[T]he 911 operator never asked the caller for his name or other identifying information and
there is no reason to believe he would not have provided this information if requested.”)
36

37
See Madrid, 713 F.3d at 1261 (“This stated motive further buttresses the reliability of the information
related by the caller because it reduces the possibility that he harbored animosity towards defendant or his
companions and tends to show that he was not using ‘the device of a phony tip to wreak injury (indignity, invasion
of privacy, suspicion, and sheer annoyance) on [his] enemies, rivals or acquaintances without fear of being held
responsible.’”).
38

Doc. 160 at 18.

10

63a

ROA Vol pg.238

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 11 of 14
Appellate Case: 19-3177

B.

Document: 010110239444

Date Filed: 10/03/2019

Page: 239

Additional Factors

Furthermore, the Court need not rely solely on the 911 call here. The responding officers
had first-hand knowledge of drug sales and other drug activity in the area. Officer Davis
testified that “we had a lot of medical-type calls of individuals on PCP, along with complaints of
narcotics sales in the area.”39 Officer Rowland testified that he had personally responded to calls
for service around the Wilhelmina Gill Center involving narcotics complaints. He also testified
that in the time leading up to the arrest on August 24, “we had increased contact with individuals
under the influence of PCP.”40 Police records show that between March and August 2015,
officers had been called eight times to the area for medical calls involving reactions to PCP or
other substances.41 “[T]he fact that conduct occurs in an area known for criminal activity [is an]
appropriate factor[] to consider in determining whether reasonable suspicion exists.”42
Defendant contends that the officers’ knowledge of drug-use in the area does not
constitute the “particularized and objective basis for suspecting the particular person stopped of
criminal activity.”43 “That the stop occurred in a high-crime area is a relevant consideration but
does not permit police to detain an individual without additional, particularized observations.”44
Here, however, the officers’ knowledge of drug—including PCP—use and sales in the area was
not the sole factor for the stop. Rather, this background knowledge provided a particularized
basis for the officers to find the 911 caller’s information reliable.

39

Doc. 57 at 46:15–22.

40

Id. at 6:23–25.

41
Gov’t Ex. 7. On July 24, 2015, police records show that officers were dispatched to the Wilhelmina Gill
Center for a female suspected of reacting to ingestion of PCP. See id.
42

United States v. DeJear, 552 F.3d 1196, 1201 (10th Cir. 2009).

43

United States v. Cortez, 449 U.S. 411, 417–18 (1981).

44

United States v. Pena-Montes, 589 F.3d 1048, 1055 (10th Cir. 2009)

11

64a

ROA Vol pg.239

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 12 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 240

The Officers also knew the particular person in the parking lot who the caller accused.45
Officer Wilcox, who was off-duty across the street, radioed that the man in the white Cadillac
had been the man standing on the corner dressed in all red when the tipster called.
While the Tenth Circuit “typically place[s] little weight on uncorroborated anonymous
tips,”46 the Court finds that the totality of the circumstances here bears sufficient indicia of
reliability to provide reasonable suspicion. The reliability of the tip—including the caller’s
statement implying that he had observed Defendant making a drug sale, the contemporaneous
nature, the use of the 911 system, the honest answers of the caller, and the length of the call—
coupled with the responding officers’ particularized knowledge of narcotic sales in the
immediate area and Officer Wilcox’s observations, “possessed an internal coherence that gave
weight to the whole.”47 The officers had reasonable suspicion to conduct a brief investigative
stop.
C.

Abandonment

The Fourth Amendment does not prohibit a search of property that has been abandoned.48
“Property is considered abandoned if the owner lacks an objectively reasonable expectation of
privacy.”49 “Abandonment contains subjective and objective components” including whether the
individual intended to relinquish any right to the property and whether his “expectation of

45

Cortez, 449 U.S. at 417–18.

46

United States v. Martinez, 910 F.3d 1309, 1314 n.2 (10th Cir. 2018)

United States v. Brown, 496 F.3d 1070, 1079 (10th Cir. 2007) (citing United States v. Jenkins, 313 F.3d
549, 554 (10th Cir. 2002).
47

48

Cir. 2017).
49

Abel v. United States, 362 U.S. 217, 241 (1960); United States v. Juszczyk, 844 F.3d 1213, 1213 (10th
Juszczyk, 844 F.3d at 1214

12 65a

ROA Vol pg.240

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 13 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 241

privacy” is “objectively reasonable.”50 “When individuals voluntarily abandon property, they
forfeit any expectation of privacy in it they might have had.”51
Here, Defendant fled from the officers carrying a small black pouch. When he found that
he was obstructed by a fence, he stopped running and threw the black pouch onto the roof of the
building located at 612 State Avenue. Officer Rowland observed Defendant throw the pouch
onto the building. After Defendant was arrested, Officer Rowland obtained a ladder and climbed
on top of the building at 612 State Ave to retrieve the pouch.
Defendant was clearly trying to conceal the black pouch from the police. He threw the
pouch onto the rooftop at 612 State Avenue after realizing he was going to be arrested, not
because he had any privacy interest in that particular building. Moreover, because he knew he
was about to be arrested, he could not have intended to return for the pouch. In Juszczyk, the
Tenth Circuit found that the Defendant “did not retain an objectively reasonable expectation of
privacy once he threw the backpack onto [his neighbor’s] roof.”52 Here, Defendant threw the
pouch onto a random building in Kansas City, Kansas; any expectation of privacy was not
objectively reasonable.
As both the Government and Defendant recognize, “[a]bandonment will not be
recognized when it is the result of illegal police conduct.”53 Here, however, the Court finds that
the officers had reasonable suspicion to perform a brief investigative stop. Accordingly, after

50

Id.

United States v. Trimble, 986 F.2d 394, 399 (10th Cir. 1993) (quoting United States v. Jones, 707 F.2d
1169, 1172 (10th Cir. 1983)).
51

52

Juszczyk, 844 F.3d at 1215.

53
United States v. Ward, 961 F.2d 1526, 1535 (10th Cir. 1992), overruled on other grounds, United States
v. Little, 18 F.3d 1499, 1504 (10th Cir. 1994).

13 66a

ROA Vol pg.241

Case 2:15-cr-20078-JAR Document 165 Filed 08/09/19 Page 14 of 14
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 242

Defendant fled, he abandoned the pouch on the rooftop, and no warrant was required to seize or
search it.
IT IS THEREFORE ORDERED BY THE COURT Defendant’s Motion to Suppress
(Doc. 46) is denied
IT IS SO ORDERED.
Dated: August 9, 2019
S/ Julie A. Robinson
JULIE A. ROBINSON
CHIEF UNITED STATES DISTRICT JUDGE

14

67a

ROA Vol pg.242

Case 2:15-cr-20078-JAR Document 53 Filed 04/07/17 Page 1 of 12
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 69

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
UNITED STATES OF AMERICA,
Plaintiff,
Case No. 15-CR-20078-JAR

v.
DESMOND S. GAINES,
Defendant.

MEMORANDUM AND ORDER
This matter comes before the Court on Defendant Desmond Gaines’ Motion to Suppress
Evidence (Doc. 46). Defendant contends that evidence seized by law enforcement from an
encounter on August 24, 2015 was seized in violation of his Fourth Amendment rights. The
Government has responded (Doc. 50), and an evidentiary hearing was held on March 8, 2017.
The Court has reviewed the evidence and arguments adduced at the hearing and is now prepared
to rule. As explained more fully below, Defendant’s motion is denied.
I.

Factual Background
Based on the testimony and evidence admitted at the hearing on this motion, the Court

finds as follows. On August 24, 2015, Officer Carl Rowland and Officer Shenee Davis, who
were both patrol officers with the Kansas City, Kansas Police Department, were dispatched to
the Wilhelmina Gill Center, at 645 Nebraska Ave. Kansas City, Kansas, following an
anonymous 911 call.1 The unidentified caller stated there was a “light-skinned” man in all red
clothing selling “wet,” which is otherwise known as phencyclidine (“PCP”). The caller stated
that the man was in the parking lot of the Wilhelmina Gill Center sitting in a white car, but he

1

Gov’t Ex. 1.

Appendix D
1

68a

ROA Vol pg.69

Case 2:15-cr-20078-JAR Document 53 Filed 04/07/17 Page 2 of 12
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 70

did not know the type of car that the man was driving. The caller stated that he was located at
the Wilhelmina Gill Center when he was observing the man.
During his testimony, Officer Rowland testified that he was familiar with the Wilhelmina
Gill Center and the surrounding area. Officer Rowland testified that he had responded to several
drug-related calls at the Wilhelmina Gill Center. In fact, police dispatch records showed that
between March and August 2015, officers had been dispatched to the Wilhelmina Gill Center
eight times for reported narcotics sales or for medical calls involving reactions to PCP or other
substances. 2 Officer Rowland further testified that based on his experience, he was familiar with
the strong, overpowering chemical odor of PCP and with behavior resulting from ingestion of
PCP.
Officer Mark Wilcox, a patrol officer for the Kansas City, Kansas Police Department,
was working on August 24, 2015 as an off-duty security guard at the Frank Williams Outreach
Center, which is directly across the street from the Wilhelmina Gill Center. Officer Wilcox
testified that he wears his uniform at the Frank Williams Outreach Center, including his police
radio. Prior to the call being dispatched, Officer Wilcox was patrolling the parking lot of the
Frank Williams Outreach Center. He noticed a man in all red clothing wiping down his car, a
white Cadillac, in the Wilhelmina Gill Center parking lot. Not long after this observation,
Officer Wilcox heard the dispatched call that a man wearing all red was selling drugs. As
Officer Rowland and Officer Davis arrived on scene, Officer Wilcox radioed about his
observation of the man wearing all red entering the white Cadillac. Officer Wilcox did not at
any time observe this man conducting a drug transaction.

2

Gov’t Ex. 7. On July 24, 2015, police records show that officers were dispatched to the Wilhelmina Gill
Center for a female suspected of reacting to ingestion of PCP. See id.

2

69a

ROA Vol pg.70

Case 2:15-cr-20078-JAR Document 53 Filed 04/07/17 Page 3 of 12
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 71

Officer Rowland, who was uniformed and driving a marked police cruiser, pulled into the
Wilhelmina Gill Center parking lot from the west. 3 Officer Davis, who was also uniformed,
followed directly behind him in the marked police cruiser that she was driving. Officer Rowland
also observed the man (subsequently identified as Desmond Gaines, the “Defendant”) entering
the white Cadillac and observed that Defendant matched the description of light skinned and
wearing all red (red hat, red shirt, red pants, and red shoes). Officer Rowland pulled up behind
the driver side of the white car, and Officer Davis pulled up alongside Officer Rowland’s cruiser,
also to the rear of the white car. Both officers activated the emergency lights on their cruisers
because their vehicles were both blocking a lane of traffic in the parking lot. While the two
police cruisers blocked the white car from the rear, the white car was not blocked in the front or
on the right side and Defendant, who was the driver, could have drove forward without obstacle.
As Officer Rowland approached the driver side of the white car, Defendant, who was
sitting in the driver’s seat with the door closed, exited the white car and quickly closed the door
behind him. Meanwhile, Officer Davis exited her cruiser and approached the rear of the white
car. Officer Rowland began to speak to Defendant, who asked Officer Rowland what he was
doing; Officer Rowland replied that there was a 911 call about a man matching his description
selling drugs. Defendant denied that he was engaged in drug sales.
Officer Rowland asked Defendant for identification; Defendant responded that his
identification was in the car trunk.4 At this point, Defendant reopened the driver side door and
pulled the trunk release. As Defendant began to walk toward the trunk, he began to close the
driver side door behind him, but Defendant then caught the door with his hand and the door
3

There is both audio and video of the encounter captured on Officer Rowland’s police cruiser camera
system. Gov’t Ex. 3. There is also video from the Wilhelmina Gill Center cameras in the parking lot. Gov’t Ex. 2.
4

Officer Rowland testified that Defendant was not considered in custody when he asked him for his
identification.

3

70a

ROA Vol pg.71

Case 2:15-cr-20078-JAR Document 53 Filed 04/07/17 Page 4 of 12
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 72

remained open. Defendant positioned himself between the car and the open driver side door.
Meanwhile, Officer Davis began to walk toward the rear part of the car, and then to the
passenger side.
Officer Rowland testified that as soon as Defendant reopened the driver’s side door,
Rowland smelled a strong chemical odor that based on his training and experience he believed
was the odor of PCP. Officer Rowland further testified that once the trunk was ajar, the odor of
PCP became stronger. From his position next to the driver side door, Officer Rowland also
observed a bottle of alcohol on the center console underneath a walkie talkie radio. Officer
Rowland told Defendant that he was going to detain him for having an open container of alcohol
within his reach in the car.5 Photographs taken at the time of the stop depict a bottle of alcohol
on the center console with the lid intact on the bottle. Officer Rowland testified that although he
also decided to detain Defendant in part because of the strong odor of PCP, he did not tell
Defendant this at that time, because he did not want to tip Defendant off that he suspected PCP
was present.
Once Officer Rowland displayed his handcuffs, he observed Defendant becoming
agitated and fidgety. Officer Rowland reached for Defendant’s left hand to place him in
handcuffs. Defendant pulled away from Officer Rowland and reached into the car through the
open driver side door. Defendant removed the keys from the ignition, grabbed a black zippered
pouch from the driver side floorboard area, turned and shoved Officer Rowland, and fled on foot.
Officers Rowland and Davis chased Defendant on foot.
Defendant fled towards the intersection of Sixth Street and State Street, then ran down an
alley between a parking lot and building south of the Wilhelmina Gill Center. When his path of

5

Possession of alcohol in a vehicle is a violation of K.S.A. § 8-1599, which is an arrestable offense.

4

71a

ROA Vol pg.72

Case 2:15-cr-20078-JAR Document 53 Filed 04/07/17 Page 5 of 12
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 73

flight was obstructed by a fence, Defendant stopped running and threw the black zippered pouch
onto the roof of the building located at 612 State Avenue. Officer Rowland observed Defendant
throw the zippered pouch on to the building. Officer Rowland testified that Defendant then
turned around in an aggressive stance. Officer Rowland drew his firearm because he was unsure
if Defendant was armed. Officer Davis was behind Officer Rowland providing cover. After
Officer Rowland commanded Defendant to get on the ground, Defendant complied, but as
Officer Rowland holstered his firearm and attempted to handcuff him, Defendant resisted.
Officer Davis then deployed her Taser for three cycles at which point Defendant was placed in
handcuffs.
Meanwhile, while Officer Rowland and Officer Davis chased Defendant on foot, Officer
Wilcox, who had watched the encounter, walked from the Frank Williams Outreach Center to
Defendant’s unattended car in the Wilhelmina Gill Center parking lot. The driver side door and
the trunk were both still open when Officer Wilcox approached. As he stood outside the car,
Officer Wilcox could see inside the car through the open driver side door. Officer Wilcox
observed a handgun on the floorboard of the car, a fact that Officer Wilcox relayed to other
officers via radio.
Meanwhile, Officer Rowland obtained a ladder and climbed on top of the building at 612
State Ave. There he recovered the black zipper pouch and its contents: a clear container of PCP,
fourteen bags of marijuana, sixty-five bags of crack cocaine, one package of More brand
cigarettes,6 and $641.51 in currency. Inside the car, police recovered a large amount of crack
cocaine and some powder cocaine from the center console. Police also recovered the firearm

6

Officer Rowland testified that based on his knowledge and experience as a patrol officer, More brand
cigarettes are the cigarette of choice for dipping PCP and smoking it through the cigarette.

5

72a

ROA Vol pg.73

Case 2:15-cr-20078-JAR Document 53 Filed 04/07/17 Page 6 of 12
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 74

visible on the floorboard of the driver seat, as well as three walkie talkie radios, and a cellular
telephone.
Following Defendant’s arrest, Officer Rowland learned that Defendant had an
outstanding warrant for his arrest. Officer Rowland testified that under normal practice when he
takes someone’s identification, he immediately runs a records check for outstanding warrants.
But, given Defendant’s flight, Officer Rowland was not able to immediately run a records check.
Officer Rowland testified that if Defendant had not fled, he would have run a records check and
presumably found the outstanding arrest warrant.
II.

Discussion
Defendant argues that the evidence seized from the car and from the roof of 612 State

Ave. was illegally seized in violation of the Fourth Amendment and should be suppressed. More
specifically, Defendant argues the anonymous 911 call did not justify the officers’ investigative
stop, and that there was no intervening circumstance that purged the taint of the Fourth
Amendment violation.
The Court disagrees. This was an initially a consensual encounter for the officers did not
detain Defendant, who was in or near his car and who had the ability to leave. The encounter
quickly evolved into an investigatory detention, based on the officer’s reasonable suspicion of an
open container violation and reasonable suspicion that there was PCP present in the car. The
investigatory detention was quickly interrupted by Defendant’s flight and attempted discard of
the zippered pouch, which provided further justification for an investigatory detention. But, even
if the initial encounter was an investigatory stop not based upon reasonable suspicion, the
attenuation doctrine applies because Officer Rowland would have found Defendant’s outstanding
arrest warrant upon running Defendant’s identification through the system.

6

73a

ROA Vol pg.74

Case 2:15-cr-20078-JAR Document 53 Filed 04/07/17 Page 7 of 12
Appellate Case: 19-3177

A.

Document: 010110239444

Date Filed: 10/03/2019

Page: 75

Consensual Encounter
The Fourth Amendment prohibits unreasonable seizures by law enforcement officers.7

However, the Fourth Amendment “does not proscribe all contact between the police and
citizens.”8 Thus, the Fourth Amendment is not violated when law enforcement officers “merely
approach[] an individual on the street or in another public place, by asking him if he is willing to
answer some questions, [or] by putting questions to him if the person is willing to listen.”9
These are properly considered consensual encounters for which the Fourth Amendment is not
implicated.10
To determine whether a police-citizen encounter is consensual, “the crucial test is
whether, taking into account all of the circumstances surrounding the encounter, the police
conduct would ‘have communicated to a reasonable person that he was not at liberty to ignore
the police presence and go about his business.’”11 This test allows officers to engage in
consensual encounters “so long as they don’t throw their official weight around unduly.”12 This
test does not have per se rules, but rather turns on the totality of the circumstances.13
The Tenth Circuit has enumerated a non-exhaustive list of factors to be considered in
determining whether a reasonable person would feel free to terminate his encounter with police:
the location of the encounter, particularly whether the defendant is in an open
public place where he is within the view of persons other than law enforcement
officers; whether the officers touch or physically restrain the defendant; whether
7

U.S. Const. amend. IV. The Fourth Amendment applies to the states through incorporation of the
Fourteenth Amendment. Mapp v. Ohio, 367 U.S. 643 (1961).
8

INS v. Delgado, 466 U.S. 210, 215 (1984).

9

Florida v. Bostick, 501 U.S. 429, 434 (1991) (quoting Florida v. Royer, 460 U.S. 491, 497 (1983)).

10

See United States v. Lopez, 443 F.3d 1280, 1283 (10th Cir. 2006).

11

Bostick, 501 U.S. at 437 (quoting Michigan v. Chesternut, 486 U.S. 567, 569 (1988)).

12

United States v. Tavolacci, 895 F.2d 1423, 1425 (D.C. Cir. 1990).

13

United States v. Hill, 199 F.3d 1143, 1147 (10th Cir. 1999) (quoting United States v. Little, 18 F.3d 1499,
1503 (10th Cir. 1994)).

7 74a

ROA Vol pg.75

Case 2:15-cr-20078-JAR Document 53 Filed 04/07/17 Page 8 of 12
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 76

the officers are uniformed or in plain clothes; whether their weapons are
displayed; the number, demeanor and tone of voice of the officers; whether and
for how long the officers retain the defendant's personal effects such as tickets or
identification; and whether or not they have specifically advised defendant at any
time that he had the right to terminate the encounter or refuse consent.14
The Tenth Circuit has also considered “when police officers pursue a citizen in their squad car
while the citizen is on foot, courts will consider whether the officers activated their siren or
flashers, operated their car in an aggressive manner to block the citizen's course or otherwise
control the direction or speed of his movement, displayed their weapons, or commanded the
citizen to halt.”15 These factors are not dispositive, but the Tenth Circuit has cautioned that “the
strong presence of two or three factors may be sufficient to support the conclusion” that the
encounter was not consensual.16 The nature of a police-citizen encounter can change and what
was initially a consensual encounter “may change to an investigative detention if the police
conduct changes and vice versa.”17
When the officers first approached Defendant, it was a consensual encounter. Although
their emergency lights were activated and their cruisers blocked Defendant’s car from behind,
Defendant’s car was not blocked from the front or on the right side. And although the
emergency lights were activated, the sirens were not activated; in fact, both officers testified they
only activated the lights because they had stopped their cruisers in a lane of traffic in the parking
lot. The officers did not touch or physically restrain Defendant. They did not have custody of
any of Defendant’s property or personal effects. The encounter was in a public parking lot
where others were present and able to witness the encounter. Although the officers were in
14

United States v. Hernandez, 847 F.3d 1257, 1264 (10th Cir. 2017) (citing Lopez, 443 F.3d at 1284).

15

Id. (citing Chesternut, 485 U.S. at 575)

16

Id. (citing Lopez, 443 F.3d at 1284–85) (internal quotations omitted).

17

United States v. Madden, 682 F.3d 920, 925 (10th Cir. 2012) (quoting United States v. Zapata, 997 F.2d
751, 756 n.3 (10th Cir. 1993)). Investigative detentions which are Fourth Amendment seizures of limited scope and
duration and must be supported by a reasonable suspicion of criminal activity. Id.

8

75a

ROA Vol pg.76

Case 2:15-cr-20078-JAR Document 53 Filed 04/07/17 Page 9 of 12
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 77

uniform and marked police cruisers, the officers did not display their weapons and there is no
evidence that they interacted with any indicia of coercive behavior. Officer Rowland spoke in a
conversational tone, simply asking to see Defendant’s identification, which Defendant agreed to
provide. Based on Officer Rowland’s conversational tone and Defendant’s behavior, the Court
finds that this was a consensual encounter. Although the officers did not advise Defendant that
this was a mere consensual encounter that Defendant could terminate, they had scant chance to
tell Defendant that, in light to the rapid succession of events described below.
As Defendant was in the process of retrieving his identification, he reopened his car door,
left the car door open and opened his trunk, which allowed Officer Rowland to detect the strong
chemical odor of PCP emanating from the passenger compartment and trunk of Defendant’s car.
And, when Defendant opened his car door, Officer Rowland observed a bottle of alcohol on the
center console, providing him with reasonable suspicion that there was an open container
violation. The Court finds that this was initially a consensual encounter that evolved into an
investigatory detention upon Officer Rowland’s reasonable suspicion based on his plain view
observation of an open container in the car and his detection of the strong odor of PCP
emanating from the car. Indeed, Officer Rowland told Defendant at that point that he was
detaining him for investigation of an open container violation, and Officer Rowland attempted to
place Defendant in handcuffs.
The rapidly developing events thereafter provided even more basis for reasonable
suspicion, and ultimately probable cause, to arrest Defendant. Defendant grabbed a zippered
pouch, shoved Officer Rowland out of the way, and fled on foot, discarding the pouch by
throwing it on a rooftop before officers could apprehend him. In fact, just thirty to sixty seconds
elapsed between Officer Rowland’s initial contact with Defendant and Defendant’s flight. The

9

76a

ROA Vol pg.77

Case 2:15-cr-20078-JAR Document 53 Filed 04/07/17 Page 10 of 12
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 78

brief consensual encounter and brief investigatory detention almost immediately evolved into a
foot chase in which the officers observed Defendant discarding a pouch that Defendant evidently
felt compelled to grab before fleeing from the officers. Once Defendant fled on foot with the
black zippered pouch, the officers had probable cause for an arrest. Thus, there was no violation
of the Fourth Amendment as this was initially a consensual encounter, which did not implicate
the Fourth Amendment, and later became an investigatory stop, which was supported by
reasonable suspicion, or arrest, which was supported by probable cause, based on the open
container violation and presence of PCP.
B.

Attenuation Doctrine
The attenuation doctrine evaluates the causal link between the government’s unlawful act

and the evidence seized.18 In Utah v. Strieff, the Supreme Court considered whether the
discovery of a valid existing warrant is sufficient to break the causal chain between an unlawful
stop and the discovery of evidence.19 The Court looked to the three factors espoused in Brown v.
Illinois for determining whether the attenuation doctrine applied—
(1) the court looks to the temporal proximity between the unconstitutional
conduct and the discovery of evidence to determine how closely the discovery of
evidence followed the unconstitutional search; (2) the court considers the
presence of intervening circumstances; and (3) the court examines the purpose
and flagrancy of the official misconduct.20
The Supreme Court held in Strieff, a circumstance similar to this case, that “the evidence
discovered on Strieff's person was admissible because the unlawful stop was sufficiently
attenuated by the pre-existing arrest warrant.”21

18

Utah v. Strieff, 136 S. Ct. 2056, 2061 (2016).

19

Id.

20

Id. at 2062 (citing Brown v. Illinois, 422 U.S. 590, 603–04 (1975)).

21

Id. at 2063.

10

77a

ROA Vol pg.78

Case 2:15-cr-20078-JAR Document 53 Filed 04/07/17 Page 11 of 12
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 79

The first factor, the temporal proximity between the unconstitutional conduct and the
discovery of evidence, favors suppression of the evidence. The Supreme Court has cautioned
that this factor only favors attenuation if a substantial time has elapsed between the conduct and
the discovery of evidence.22 Here, if this Court were to assume the stop itself was unlawful,
there were only several minutes between the initial stop and the evidence being found on the roof
and in the car. Thus, this would favor suppression.
By contrast, the second factor, the presence of intervening circumstances, strongly favors
the Government. In Strieff, the Court relied on the fact that the defendant had a valid warrant
pre-existing the investigation that was wholly unconnected to the initial stop.23 “A warrant is a
judicial mandate to an officer to conduct a search or make an arrest, and the officer has a sworn
duty to carry out its provisions.”24 Here, this is somewhat different than the case in Strieff
because Officer Rowland and Officer Davis did not find out about the outstanding warrant until
after Defendant fled on foot and was arrested. However, if Defendant had not fled the initial
stop, Officer Rowland would have used Defendant’s identification and ran a check. This check
would have shown the existence of a valid, pre-existing warrant that was wholly unrelated to the
current stop. This would have been an independent, intervening circumstance that would have
warranted search of Defendant’s person and his car incident to his arrest.25 This factor strongly
favors the Government.

22

Kaupp v. Texas, 538 U.S. 626, 633 (2003).

23

Strieff, 136 S. Ct. at 2082.

24

United States v. Leon, 468 U.S. 897, 920 n.21(1984).

25

See generally Arizona v. Gant, 556 U.S. 332, 339 (2009) (explaining the permissible scope of searches
incident to arrest).

11 78a

ROA Vol pg.79

Case 2:15-cr-20078-JAR Document 53 Filed 04/07/17 Page 12 of 12
Appellate Case: 19-3177

Document: 010110239444

Date Filed: 10/03/2019

Page: 80

The third factor, deterring police misconduct, also weighs in favor of the Government.
The exclusionary rule exists to deter police misconduct.26 Here, as this Court described above,
Officer Rowland and Officer Davis engaged in a consensual encounter with Defendant. Thus,
the Court does not believe that the officers committed any sort of police misconduct. However,
even assuming the Court adopted Defendant’s argument that this was not a consensual encounter
and rose to the level of an investigatory stop without requisite reasonable suspicion, Officer
Rowland and Officer Davis could be considered at most negligent. Because there has been no
evidence presented that the stop was part of any systemic or willful police misconduct, the Court
finds that this factor also strongly favors the Government. In conclusion, the Court finds, based
on the three attenuation doctrine factors and the Court’s holding in Strieff, that the evidence
found on the roof and in Defendant’s car is admissible because even if the stop was unlawful, it
was sufficiently attenuated by the pre-existing arrest warrant.
IT IS THEREFORE ORDERED BY THE COURT that Defendant’s Motion to
Suppress Evidence (Doc. 46) is denied.
IT IS SO ORDERED.
Dated: April 7, 2017

26

S/ Julie A. Robinson
JULIE A. ROBINSON
UNITED STATES DISTRICT JUDGE

Davis v. United States, 564 U.S. 229, 236–237 (2011).

12

79a

ROA Vol pg.80

